United States
Department of   Ofﬁce of Inspector General
Agriculture
                Semiannual Report to
Ofﬁce of
Inspector
General
                Congress
No. 55
May 2006
                FY 2006 – 1st Half
MISSION OF THE OFFICE OF INSPECTOR GENERAL
The Oﬃce of Inspector General (OIG) assists the U.S. Department of Agriculture (USDA) by promoting
eﬀectiveness and integrity in the hundreds of programs of the Department. These programs encompass a
broad spectrum, involving such areas as consumer protection, nutrition, animal and plant health, agricultural
production, agricultural product inspection and marketing, rural development, research, conservation, and
forestry. They aﬀect our citizens, our communities, and our economy.



OFFICE OF INSPECTOR GENERAL STRATEGIC GOALS
We have focused nearly all of our audit and investigative direct resources on our three strategic goals:

Support USDA in the enhancement of safety and security measures to protect USDA
and agricultural resources and in related public health concerns.

Reduce program vulnerabilities and enhance integrity in the delivery of beneﬁts to individuals.

Increase the efﬁciency and effectiveness with which USDA manages and employs
public assets and resources, including physical and information resources.




OIG MAJOR USDA MANAGEMENT CHALLENGES
Interagency Communications, Coordination, and Program Integration Need Improvement

Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed

Continuing Improvements Needed in Information Technology Security

Reducing Improper Payments Continues To Be a Priority of Congress and the Administration

Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained

Departmentwide Efforts and Initiatives on Genetically Engineered Organisms Need To Be Strengthened
Contents

Safety, Security, and Public Health . . . . . . . . . . . . . . . . . . . . 1

Integrity of Beneﬁts and Entitlements Programs . . . . . . . . . . 8

Management of Public Resources . . . . . . . . . . . . . . . . . . . 17

Gauging the Impact of the OIG . . . . . . . . . . . . . . . . . . . . . 28

Abbreviations of Organizations . . . . . . . . . . . . . . . . . . . . . 46
                                                                Goal 1




Safety, Security, and Public Health

OIG Strategic Goal 1:                                                    civil, or administrative action taken. OIG issued six audit
                                                                         reports under Goal 1 during this reporting period. OIG’s
                                                                         investigations under Goal 1 yielded 8 indictments, 10
Support USDA in the enhancement of safety                                convictions, and about $338,784 in monetary results
and security measures to protect USDA and                                during this reporting period.
agricultural resources and in related public
health concerns                                                          EXAMPLES OF AUDIT AND INVESTIGATIVE
                                                                         WORK FOR GOAL 1
To help the United States Department of Agriculture
(USDA) and the American people meet the critical                         BSE Surveillance Program and Speciﬁed
challenges in safety, security, and public health, it is                 Risk Material Controls Could Be Improved
our responsibility in the Oﬃce of Inspector General
(OIG) to provide independent, professional audits and                    Approximately 6 months after the December 2003
investigations in these areas. Our work addresses such                   discovery of a cow infected with BSE, the Animal and
issues as the ongoing challenges of protecting the American              Plant Health Inspection Service (APHIS) implemented
public and the American herd from the spread of bovine                   its expanded BSE surveillance program. As of May 2005,
spongiform encephalopathy (BSE, or more commonly                         more than 350,000 animals had been sampled and tested
“mad cow disease”), strengthening controls over genetically              for BSE. Since the expansion of the surveillance program,
engineered organisms, preparing for and responding to                    two additional animals have tested positive for BSE.
avian inﬂuenza, and investigating crimes by or against                       At the time of our audit, we could not fully assess any
Federal employees on Federal property.                                   of APHIS’ approaches to determining the prevalence of
   In the ﬁrst half of FY 2006, we devoted 13.5 percent                  BSE because it had not ﬁnalized its analysis, although we
of our total audit and investigative resources to Goal 1.                did oﬀer some observations. APHIS obtained signiﬁcantly
Further, 91.1 percent of the time we spent directly on                   more samples for testing than originally thought needed,
Goal 1 was assigned to critical/high-impact work. A total                but, because the program is voluntary and USDA-
of 93.8 percent of our audit recommendations under                       published data on the U.S. herd is not comprehensive, we
Goal 1 resulted in management decision within 1 year,                    could not determine the extent to which APHIS obtained
and 58.8 percent of our investigative cases had criminal,                a representative sample of either high-risk or apparently




      Management Challenges Addressed Under Goal 1


      ■      Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 2 and 3)

      ■      Continuing Improvements Needed in Information Technology (IT) Security (also under Goal 3)

      ■      Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained

      ■      Departmentwide Efforts and Initiatives on Genetically Engineered Organisms (GEO) Need To Be Strengthened




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half      1
                                                                  Goal 1




healthy adult cattle. Speciﬁcally, we could not determine                  USDA Needs To Strengthen Controls for Beef
how similar the distribution of tested cattle is to that of the
                                                                           Exported to Japan
U.S. herd, especially regarding age, geographic location, and
surveillance stream (clinical suspects, fallen stock, casualty
                                                                           On January 20, 2006, Japan halted the importation of U.S.
slaughter, and routine slaughter). We recommended that
                                                                           beef products because veal product exported from a U.S.
USDA re-evaluate and adjust its testing protocols based on its
                                                                           plant contained vertebral column material, a violation of
evaluation of emerging science and strengthen its proﬁciency
                                                                           an agreement between the United States and Japan. The
testing and quality assurance reviews at participating
                                                                           Secretary immediately announced 12 actions that USDA
laboratories, especially for inconclusive test results. At the
                                                                           would undertake to facilitate resuming trade and requested
Secretary’s direction, APHIS revised its testing protocols
                                                                           that OIG review the adequacy of USDA’s coordination and
to require additional conﬁrmatory procedures when
                                                                           control processes for the Beef Export Veriﬁcation (BEV)
inconclusive test results occur. APHIS also agreed to publish
                                                                           program for Japan. We concluded that the Agricultural
information to fully advise stakeholders of assumptions and
                                                                           Marketing Service (AMS) and FSIS could strengthen
procedures, limitations of data, and conclusions reached
                                                                           controls over the BEV program by better communicating
as a result of the BSE surveillance program. In addition,
                                                                           BEV program requirements, clearly deﬁning roles and
APHIS agreed to perform additional outreach to emphasize
                                                                           responsibilities, and implementing additional oversight of
the importance of accurately determining and recording
                                                                           FSIS inspection personnel.
the age of the target animals, and to ensure that laboratory
                                                                              In response to our audit, AMS agreed to maintain a list
personnel understand procedures.
                                                                           of speciﬁc export-eligible products for each facility with an
   The Food Safety and Inspection Service (FSIS) condemns
                                                                           approved BEV program, systematically notify FSIS when
cattle if they exhibit signs associated with BSE, and bans
                                                                           any establishment is approved/delisted from a BEV program,
speciﬁed risk materials (SRM) such as brain, skull, eyes,
                                                                           and work with establishments to ensure their processes and
and spinal cord from the food supply. We did not identify
                                                                           controls adhere to BEV program requirements. FSIS agreed
SRMs entering the food supply; however, due to the lack
                                                                           to clarify the roles and responsibilities of FSIS personnel
of adequate records, we could not determine whether
                                                                           involved at each stage of the export veriﬁcation process,
procedures to remove, segregate, and dispose of SRMs were
                                                                           expedite the development of export certiﬁcation training,
followed and/or adequate in 9 of the 12 establishments
                                                                           and increase supervisory oversight of the export certiﬁcation
reviewed. FSIS does not have an information system to
                                                                           process. These actions, along with the 12 announced by the
track noncompliance violations relating to SRMs. FSIS
                                                                           Secretary, should further strengthen the program. (Audit
agreed to verify the adequacy of SRM control programs
                                                                           Report No. 50601-11-HQ, Assessment of USDA’s Controls
at all beef slaughter and processing establishments and
                                                                           for the Beef Export Veriﬁcation Program for Japan)
conﬁrm compliance with SRM control procedures through
its Performance Based Inspection System, which should
                                                                           Signiﬁcant Steps Still Need To Be
be modiﬁed to allow for timely analysis of violation trends
                                                                           Implemented Regarding the Canadian
and tracking corrective action. Management has agreed to
                                                                           Inspection System
implement all of OIG’s recommendations. (Audit Report
No. 50601-10-KC, BSE Surveillance Program – Phase II
                                                                           FSIS regulations require foreign inspection systems for
and Controls Over BSE Sampling, SRMs, and Advanced
                                                                           meat and poultry products to provide standards equivalent
Meat Recovery Products – Phase III)
                                                                           to those of the United States to allow imports from those
                                                                           countries into the United States. In July 2003—and again
                                                                           in June 2005—FSIS found that Canada was not enforcing
                                                                           certain pathogen reduction and Hazard Analysis and
                                                                           Critical Control Point (HACCP) system regulations. All
                                                                           plants must develop, adopt, and implement a HACCP plan




  2    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                                   Goal 1




for each of their processes. Under HACCP, plants identify                   Stronger Controls Would Improve the In-Plant
critical control points during their processes where hazards
                                                                            Performance System (IPPS)
such as microbial contamination can occur, establish
controls to reduce those hazards, and maintain records
                                                                            FSIS’ management control system needs strengthening
documenting that controls are working as intended. FSIS
                                                                            to ensure accountability of consumer safety inspector
did not have protocols for evaluating deﬁciencies that could
                                                                            performance. FSIS did not require supervisors to complete
jeopardize a country’s overall equivalence determination.
                                                                            the entire IPPS review form when evaluating inspectors,
In addition, FSIS did not institute compensating controls
                                                                            so supervisors had not completed all sub-elements on
(e.g., increased port-of-entry testing) to ensure that public
                                                                            84 percent (100 of 119) of the review forms examined. Many
health was not compromised by deﬁciencies. More than
                                                                            of the sub-elements related to critical aspects of inspector
4.4 billion pounds of Canadian processed products entered
                                                                            duties, such as Hazard Analysis and Critical Control Point
the United States from January 2003 through May 2005,
                                                                            (HACCP) procedures. HACCP sets certain pathogen
even though FSIS oﬃcials questioned the equivalence of
                                                                            reduction performance standards and process control
the Canadian inspection system.
                                                                            performance criteria, establishes testing programs to ensure
   Our July 2005 management alert reported that FSIS
                                                                            those standards are met, and assigns tasks to inspectors to
had not taken timely action to resolve the 2003 ﬁnding
                                                                            enable them to ensure regulatory performance standards are
that Canada does not require daily inspection coverage at
                                                                            met. In addition, FSIS had no system to schedule and track
processing establishments to approximate U.S. standards.
                                                                            the completion of IPPS reviews, and supervisors were not
Further, in testing for Listeria monocytogenes, Canada
                                                                            required to use the extensive guidance available to them in
requires risk-based environmental sampling, versus the
                                                                            preparing for IPPS reviews. As a result, supervisors had not
ﬁnished product sampling required by FSIS. In addition,
                                                                            used signiﬁcant segments of the guidance to enhance their
FSIS’ actions regarding Canadian establishments were not
                                                                            on-site review of consumer safety inspectors.
consistent with its treatment of establishments in other
                                                                               FSIS agreed to closely monitor ﬁeld managers and
countries.
                                                                            supervisors involved in the IPPS process, analyze IPPS
   We recommended that FSIS develop and implement
                                                                            review data, and periodically evaluate the IPPS review
protocols for determining which equivalence deﬁciencies
                                                                            process. FSIS also agreed to revise its guidance to require
would call into question a country’s overall equivalence to
                                                                            supervisors to examine speciﬁc data sources and system
U.S. standards. FSIS also needs to make an equivalence
                                                                            reports before performing an IPPS review, complete all
determination on the Canadian inspection system control
                                                                            sub-elements on review forms during an inspector’s rating
for Listeria monocytogenes in ready-to-eat products. In
                                                                            period, and provide narratives for all review elements.
response to our audit, FSIS agreed to make an equivalence
                                                                            (Audit Report No. 24601-6-Ch, Review of FSIS’ IPPS)
determination regarding daily inspection coverage by 2007.
In the interim, FSIS agreed to ensure that there is no increased
                                                                            Cattle Smuggler Sentenced
risk to public health in the United States by doubling the
                                                                            As reported last period, in September 2004, OIG and
sampling of Canadian shipments, and Canadian inspection
                                                                            APHIS began to investigate Canadian cattle being smuggled
oﬃcials agreed to increase the presence of inspectors in
                                                                            into the United States through an Indian reservation. The
processing establishments exporting to the United States.
                                                                            smuggling of cattle into the United States poses a signiﬁcant
(Audit Report No. 24601-05-Hy, FSIS Assessment of the
                                                                            safety and health risk because the animals have not been
Equivalence of the Canadian Inspection System)
                                                                            inspected to ensure they are free from diseases such as
                                                                            BSE. In March 2005, two individuals were indicted. One,
                                                                            a Canadian citizen, pled guilty in U.S. Federal Court in
                                                                            Utica, New York, and, in November 2005, was ﬁned $3,100
                                                                            and released to the Indian reservation in Canada. Charges
                                                                            against the other, a U.S. citizen, are pending.




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half         3
                                                                 Goal 1




                                                                          applications to inspection of ﬁelds—weaknesses in APHIS’
Inspection of ARS Laboratory Concerning
                                                                          internal management controls increase the risk that regulated
Implementation of Safety Recommendations
                                                                          genetically engineered organisms (GEO) will persist in the
                                                                          environment before they are deemed safe to grow without
Personnel from OIG’s Planning and Special Projects (P&SP)
                                                                          regulation. Depending on the GE crop, APHIS authorizes
Division (which performs research and inspection activities)
                                                                          ﬁeld tests through two methods—permits and notiﬁcations.
conducted an inspection of an Agricultural Research Service
                                                                          For ﬁeld tests of high-risk GE crops, such as those designed
(ARS) laboratory. This laboratory had been the subject
                                                                          to produce pharmaceutical and industrial compounds,
of a Centers for Disease Control and Prevention (CDC)
                                                                          APHIS issues permits. For GE crops that APHIS considers
investigation following a dual infection with Escherichia coli
                                                                          low-risk based on its scientiﬁc experience with the plants,
(E. coli) and Salmonella of a research laboratory worker. A
                                                                          applicants can use a more streamlined notiﬁcation process.
biological scientist on our staﬀ veriﬁed that ARS, to the
                                                                          However, we found that APHIS lacks basic information
extent possible, had implemented the corrective actions
                                                                          about the ﬁeld test sites it approves and is responsible for
recommended by CDC. The P&SP staﬀ provides OIG
                                                                          monitoring, including where and how the crops are being
with the ability to quickly respond to emerging issues.
                                                                          grown and what becomes of them at the end of the ﬁeld
                                                                          test. Improving how APHIS gathers information about
APHIS’ Oversight and Enforcement of
                                                                          these crops is crucial to adequately monitoring GE plants
Security for Biological Agents and Toxins
                                                                          and preventing them from entering the food supply before
Need Strengthening                                                        they are judged safe for human consumption.
                                                                             Our audit made 28 recommendations for strengthening
“Select” plant and animal biological agents and toxins
                                                                          controls in this area. Most signiﬁcantly, we recommended
are those that pose a severe threat to animals, plants, and
                                                                          that APHIS (1) obtain more information on ﬁeld tests
products. For such agents and toxins, APHIS had not
                                                                          to identify where regulated GE crops are planted, as
ensured that entities were fully complying with regulations
                                                                          well as the ﬁnal disposition of high-risk pharmaceutical
regarding security plans; restricting access; training
                                                                          and industrial harvests; (2) obtain applicants’ scientiﬁc
individuals authorized to possess, use, or transfer them;
                                                                          protocols for conducting ﬁeld tests and seek legislative
and maintaining current and accurate inventories. This
                                                                          authority to require permit applicants to provide proof of
occurred because APHIS had not promptly or adequately
                                                                          ﬁnancial responsibility in case of an unauthorized release of
reviewed required security measures, leaving select agents
                                                                          GEOs; (3) formalize its inspection process and update its
or toxins vulnerable to potential theft or misuse. APHIS
                                                                          regulations; (4) develop a comprehensive tracking system
generally agreed with our recommendations about speciﬁc
                                                                          for GEO release permits and notiﬁcations; and (5) develop
ways to improve inspections and the need to re-inspect
                                                                          guidance on devitalization deadlines and edible crops.
registered entities to ensure compliance with security
                                                                             APHIS oﬃcials agreed with and have acted on 23 of the
regulations, using formal written procedures to ensure that
                                                                          28 recommendations, making signiﬁcant improvements
the inspections are consistent and thorough. (Audit Report
                                                                          to the program. In its March 27, 2006, followup response
No. 33601-3-At, Evaluation of the Implementation of the
                                                                          to OIG, APHIS provided additional information on the
Select Agent or Toxin Regulations – Phase II)
                                                                          open recommendations. APHIS stated that it will develop a
                                                                          policy to clarify its current risk- and science-based position
APHIS Needs To Improve Regulation of GE                                   and that this policy will be completed by December 31,
Crops                                                                     2006. We are analyzing the response from APHIS and
                                                                          working with the agency to resolve remaining diﬀerences.
We found that APHIS needs to strengthen its accountability                (Audit Report No. 50601-8-Te, APHIS Controls Over
for ﬁeld tests of genetically engineered (GE) crops. At                   Issuance of GEO Release Permits)
various stages of the ﬁeld test process—from approval of




  4    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                               Goal 1




Meat Company Pleads Guilty to Smuggling                                 other shipments were delivered. The eggs were manifested
                                                                        on the customs declaration as plastic samples, plastic
Poultry Products Into the U.S.
                                                                        wrap, porcelain, and glass ornaments. The wife admitted
                                                                        to smuggling the eggs into the United States to save the
In March 2005, a meat company and its owners pled
                                                                        bloodline and circumvent payment for the proper veterinary
guilty in Los Angeles to three felony counts of smuggling
                                                                        certiﬁcates. A total of 149 chickens, 9 turkeys, and
prohibited poultry products. A November 2000 inspection
                                                                        111 eggs were quarantined and destroyed. The U.S.
by the former U.S. Customs Service of a shipment imported
                                                                        Attorney’s Oﬃce declined criminal prosecution of the
from Vietnam revealed prohibited poultry products: frozen
                                                                        husband and wife because of the destruction of the eggs.
duck and chicken feet in clear plastic bags with no labels
                                                                        This was a joint investigation with APHIS’ Investigative
or any mark of Federal inspection. The container manifest
                                                                        Enforcement Services.
identiﬁed the contents as “seafood.” In October 2005, the
company was sentenced to 60 months of probation, ﬁned
$250,000, and assessed $800. The two owners were placed                 Three Companies Guilty in Conspiracy To
on probation for 24 months and each agreed to pay a criminal            Export Prohibited Potatoes to Mexico
ﬁne of $7,500 and a mandatory assessment of $100.
                                                                        From April through August 2000, multiple agriculture
                                                                        brokers and producers provided false origin information to
Remaining Lab Employees Sentenced for
                                                                        USDA PPQ Oﬃcers to obtain phytosanitary certiﬁcates.
Smuggling Viruses from Saudi Arabia
                                                                        These certiﬁcates, issued in southern California, were
                                                                        required by Mexico to export potato shipments from the
As previously reported for the second half of FY 2004,
                                                                        United States. The potatoes actually originated from States
company oﬃcials at a manufacturer and international
                                                                        that had previously been barred by Mexico because potatoes
supplier of poultry vaccines smuggled live Exotic Newcastle
                                                                        from those States contained golden nematodes (Globodera
Disease and avian inﬂuenza viruses from Saudi Arabia into
                                                                        rostochiensis), considered a pest requiring quarantine
the United States. In July 2005, the company was sentenced
                                                                        in Mexico. The shipments, accompanied by a false
to 60 months of probation, ﬁned $500,000, and assessed
                                                                        phytosanitary certiﬁcate, were tested by Mexico and found
$2,125. Six company oﬃcials, a university department
                                                                        to contain golden nematodes. Based on the false origin
chairman, and a veterinarian were sentenced to prison
                                                                        information on the certiﬁcates, Mexico barred additional
terms ranging from several months to more than a year,
                                                                        States from exporting potatoes. In July and August 2005,
probation, and ﬁnes and restitution totaling $591,710. In
                                                                        one brokerage company and one potato producing company
January 2006, sentencing was completed and the company
                                                                        were indicted and pled guilty to providing false information.
also paid a civil settlement of $100,000.
                                                                        In November 2005, a second brokerage company pled
                                                                        guilty to providing false information. Both companies were
Indiana Farm Quarantined, Smuggled Poultry
                                                                        sentenced to probation, as well as given combined ﬁnes of
and Eggs Destroyed
                                                                        $20,525 and restitution of $30,000.

An Indiana man and his wife had their poultry farm
                                                                        Numerous Sentencings in Investigation for
quarantined and the birds and eggs destroyed for
circumventing USDA requirements on importation of
                                                                        Trafﬁcking in Endangered Species
poultry and eggs into the United States. The wife had
                                                                        As reported for the ﬁrst half of FY 2005, the owners of a
developed a new breed of chicken with unique feathering.
                                                                        Minnesota animal park conspired with numerous individuals
From May to September 2005, nine shipments of eggs from
                                                                        nationwide to make false statements on APHIS forms to
the United Kingdom were intercepted at Chicago’s O’Hare
                                                                        illegally sell and transport endangered species in violation
International Airport by U.S. Department of Homeland
                                                                        of the Lacey Act. Nine individuals and one corporation
Security’s (DHS) Customs and Border Protection, though




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half         5
                                                                 Goal 1




pled guilty to a variety of charges. In October 2005, one                 standards, adopt a standardized ﬁeld language assessment for
owner was sentenced to serve 18 months in Federal prison,                 contract crews and ensure the use of a pre-season language
followed by 36 months of probation. The other owner was                   assessment and certiﬁcation, and coordinate with other
sentenced, in September 2005, to 15 months in prison and                  Government agencies having regulatory or enforcement
24 months of probation. The seven other subjects were                     authority in order to identify counterfeit documents used
sentenced to home detention and/or probation. Two of the                  to obtain employment on contract crews. (Audit Report
subjects were required to post notices on their business Web              No. 08601-42-SF, FS Fireﬁghting Contract Crews)
sites that they have been convicted of Lacey Act violations,
and another was ordered to participate in a public service                FS Fireﬁghter Sentenced for Rape of a Minor
educational video.
                                                                          In December 2005, an FS seasonal ﬁreﬁghter, stationed
FS Needs To Manage Fireﬁghting Contract                                   at the Smith River National Recreation Area (NRA) and
Crews Better                                                              Gasquet Ranger District in California, pled guilty to rape
                                                                          of a minor, lewd and lascivious acts upon a child under the
FS has been increasing its use of contract suppression crews,             age of 14, and related charges. He resigned from his FS
but it did not review and verify contracted ﬁreﬁghters’                   position. The conduct charged in the complaint occurred
qualiﬁcation and training records or monitor pre-season                   in the FS employee barracks at the Six Rivers NRA. The
work capacity testing. A signiﬁcant number of contracted                  employee was sentenced to 12 months in jail and 36 months
ﬁreﬁghters may not have been qualiﬁed to perform their                    of probation, and must register as a sex oﬀender.
duties, as evidenced by missing training certiﬁcates,
improperly completed task books, and advancement to                       FS Fireﬁghter Sentenced for Kidnapping and
supervisory positions without adequate experience. FS also                Raping Co-worker
lacked oversight of private associations that trained contract
ﬁreﬁghters.                                                               In March 2006, an FS ﬁreﬁghter was sentenced to 36 years
   In addition, we found that FS had problems with                        to life for the kidnapping and rape of a co-worker. In April
contracted crews’ and crew supervisors’ ability to                        2005, a female FS ﬁreﬁghter alleged that she had been
communicate in English, which could seriously impact                      raped, kidnapped, and held hostage by a male co-worker. It
safety and the ability to eﬀectively use the contracted crew              was alleged that this started in the FS barracks and that later
on the ﬁre line. Further, undocumented workers were                       she was taken against her will to the subject’s residence. The
improperly hired on contract ﬁreﬁghting crews; we did not                 male ﬁreﬁghter was arrested by the Los Angeles County,
have suﬃcient information to estimate their percentage.                   California, Sheriﬀ’s Department and charged with six
   FS agreed to verify ﬁreﬁghter qualiﬁcation records and                 counts relating to rape, sodomy, and kidnapping. In April
clarify work experience requirements, monitor private                     2005, FS ﬁred the subject, and in October he was convicted
associations that provide training to ensure that they meet               by jury trial.




      GOVERNMENT-WIDE ACTIVITIES – GOAL 1

      Participation on Committees, Working Groups, and Task Forces

      ■    OIG staﬀ members have been participating in the President’s Council on Integrity and Eﬃciency’s (PCIE)
           Inspection and Evaluation Committee (I&E) Roundtable meetings. OIG commented on I&E’s paper titled “A
           Guide for Inspectors General on the Evaluation of Agency Emergency Preparedness Under the National Incident
           Management System (NIMS) Framework.” Our comments addressed the purpose, audience, and use of the guide.




  6    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                               Goal 1




ONGOING AND PLANNED REVIEWS FOR GOAL 1

Topics that will be covered in ongoing or planned reviews under Goal 1 include:

■     APHIS’ oversight of avian inﬂuenza,                      ■        USDA progress in enhancing agricultural biosecurity
                                                                        through diagnostic and reporting networks
■     review of Customs and Border Protection’s agricultural
                                                                        (APHIS, FSIS, and Cooperative State Research,
      inspection activities at U.S. borders (APHIS),
                                                                        Education, and Extension Service (CSREES)),
■     general controls at the Center for
                                                               ■        USDA’s role in the export of genetically engineered
      Veterinary Biologics (APHIS),
                                                                        agricultural commodities (Foreign Agricultural
■     controls at the APHIS Emergency Operations Center,                Service (FAS), Grain Inspection, Packers and
                                                                        Stockyards Administration (GIPSA), APHIS, and
■     controls over interstate movement and
                                                                        Agricultural Marketing Service (AMS)),
      disposition of animals (APHIS),
                                                               ■        application controls over the National
■     egg processing inspection (FSIS),
                                                                        Pathogen Inventory (ARS),
■     effectiveness of controls over the Bovine Tuberculosis
                                                               ■        USDA controls over genetically engineered
      (TB) Eradication Program (APHIS and FSIS),
                                                                        animals/insects research (APHIS and ARS),
■     review of Pathogen Reduction Enforcement
                                                               ■        USDA homeland security initiatives (APHIS, Farm
      Program sampling procedures (FSIS),
                                                                        Service Agency (FSA), Risk Management Agency
■     FSIS State Meat and Poultry Programs,                             (RMA), FSIS, and Food and Nutrition Service (FNS)),
■     effectiveness of APHIS’ controls to identify and         ■        assessment of FSA’s new port approval and inspection
      prevent unauthorized entry of prohibited products,                process made effective July 1, 2004, and

                                                               ■        followup review of FS’ security over explosives.



The ﬁndings and recommendations from these eﬀorts will be covered in future semiannual reports as the relevant audits
and investigations are completed.




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half       7
Integrity of Beneﬁts and Entitlements Programs

OIG Strategic Goal 2:                                                  EXAMPLES OF AUDIT AND INVESTIGATIVE
                                                                       WORK FOR GOAL 2
Reduce program vulnerabilities and enhance                             OIG’s Response to Hurricanes Katrina and
integrity in the delivery of beneﬁts to individuals                    Rita
                                                                       The Gulf Coast region suﬀered immense devastation from
OIG conducts audits and investigations to ensure or restore
                                                                       Hurricanes Katrina and Rita, and USDA is playing a
integrity in the various beneﬁt and entitlement programs
                                                                       signiﬁcant role in Federal recovery eﬀorts. The Department’s
of USDA, including a variety of programs that provide
                                                                       budget for hurricane relief aid totals over $4.5 billion to
payments directly and indirectly to individuals or entities.
                                                                       date. The President and Congressional leaders promptly
Their intended beneﬁciaries include the working poor,
                                                                       requested Inspectors General to provide oversight of Federal
hurricane and other disaster victims, and schoolchildren,
                                                                       disaster aid programs. Our oﬃce has developed a plan for
as well as farmers and producers. These programs support
                                                                       oversight of USDA’s disaster relief eﬀorts. Our goal is to
nutrition, farm production, and rural development and
                                                                       ensure accountability for the Department’s hurricane relief
involve tens of billions of dollars in outlays for FY 2006.
                                                                       expenditures and to help agency oﬃcials assist citizens and
   In the ﬁrst half of FY 2006, we devoted 41.6 percent
                                                                       communities in the Gulf region as eﬃciently as possible.
of our total audit and investigative resources to Goal 2.
                                                                       We are working with USDA oﬃcials and other Federal
Further, 91.3 percent of the time we spent directly on
                                                                       OIGs to prevent waste, fraud, and abuse from occurring in
Goal 2 was assigned to critical/high-impact work. A total
                                                                       the multi-faceted relief eﬀorts now underway.
of 65.6 percent of our audit recommendations under
Goal 2 resulted in management decision within 1 year,
                                                                       Audit Initiatives
and 79.5 percent of our investigative cases had criminal,
civil, or administrative action taken. OIG issued 19 audit
                                                                       We currently have 10 audits underway pertaining to USDA
reports under Goal 2 during this reporting period. OIG
                                                                       actions responding to Hurricanes Katrina and Rita, and we
investigations under Goal 2 yielded 95 indictments, 91
                                                                       have targeted those disaster relief programs that may be the
convictions, and about $16 million in monetary results
                                                                       most vulnerable to fraud. We are: (1) monitoring the Food
during the reporting period.
                                                                       and Nutrition Service’s (FNS) Disaster Food Stamp Program




      Management Challenges Addressed Under Goal 2


      ■     Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 1 and 3)

      ■     Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed (also under Goal 3)




  8    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                                   Goal 2




in Louisiana, Texas, and Mississippi to reduce fraud such as                Ohio Furniture Store Owner Guilty of
duplicate payments; (2) reviewing administrative controls
                                                                            Trafﬁcking in Food Stamps and Stolen
at the Rural Housing Service (RHS) regarding single and
                                                                            Property
multi-family housing assistance provided to hurricane
victims; (3) assessing the impact of any waivers or revisions
                                                                               From January 2002 to January 2004, an Ohio furniture
of administrative procedures for issuing conservation or
                                                                            store owner led a nationwide network that traﬃcked in
farm program beneﬁts to farmers who suﬀered economic
                                                                            stolen merchandise and food stamps through inner-city
losses from the hurricanes; and (4) reviewing FS use of
                                                                            markets near Dayton, Ohio. The stolen merchandise that
Federal Emergency Management Agency funds to establish
                                                                            was transported to several other States included infant
tent cities and obtain supplies for relief workers. In addition,
                                                                            formula, diabetic blood glucose test strips, over-the-counter
we provided the DHS OIG with a suggestion about how to
                                                                            medications, and health and beauty aids worth about
improve emergency procurements in a disaster situation.
                                                                            $448,656. Much of the stolen infant formula was transported
                                                                            interstate to Special Supplemental Nutrition Program for
Investigative Activities                                                    Women, Infants, and Children (WIC) authorized stores.
                                                                            During more than 47 undercover transactions, food stamp
The OIG Oﬃce of Investigations is working closely with
                                                                            beneﬁts totaling $30,083 were traﬃcked via Electronic
other Federal, State, and local law enforcement agencies to
                                                                            Beneﬁts Transfer (EBT) cards.
conduct investigations into fraud associated with the relief
                                                                               In January 2004, the store owner and 19 others were
and reconstruction eﬀorts in the response to Hurricanes
                                                                            charged with food stamp traﬃcking, receipt and interstate
Katrina and Rita. We have special agents assigned to the
                                                                            transportation of stolen property, conspiracy, and money
U.S. Department of Justice (DOJ) Hurricane Katrina Fraud
                                                                            laundering. Nineteen, including the store owner, have pled
Task Forces located throughout the United States. Based
                                                                            guilty or been convicted. Sixteen received sentences ranging
on referrals from the U.S. Attorneys’ Oﬃces in Louisiana
                                                                            from 8 to 28 months of incarceration with 12 to 36 months
and Mississippi, we have several ongoing investigations of
                                                                            of probation, total ﬁnes of $6,950, and total restitution of
individuals who ﬁled false applications to obtain beneﬁts to
                                                                            $87,552. In March 2006, the store owner was sentenced to
which they are not entitled.
                                                                            11 years of incarceration, 5 years of supervised release, and
   In January 2006, an individual pled guilty to making false
                                                                            more than $2.6 million in restitution. Sentencing is pending
statements on the food stamp application he submitted.
                                                                            for the two others. This was a joint investigation with the
In September 2005, FNS had authorized a disaster food
                                                                            Ohio Organized Crime Investigations Commission and the
stamp program in Louisiana parishes aﬀected by Hurricane
                                                                            Federal Bureau of Investigation (FBI).
Katrina. The individual submitted an application to the
State of Louisiana Department of Human Services, listing
                                                                            Store Owner Guilty of Trafﬁcking
a New Orleans address as his residence, and received $447
                                                                            Approximately $7 Million in Food Stamps
in disaster food stamp assistance from September through
November 2005. Our investigation found that the subject
                                                                            In November 2005, the owner of a small grocery store in
was not entitled to this assistance because he did not live in
                                                                            Chicago, Illinois, pled guilty to two counts of wire fraud.
the aﬀected area. Sentencing is pending.
                                                                            From January 1997 through August 2002, the store owner
                                                                            redeemed approximately $7 million in electronic food
                                                                            stamp beneﬁts, despite annual reported food sales of only
                                                                            $150,000 and purchases of food and non-food inventory
                                                                            of approximately $1.9 million. The owner admitted that he
                                                                            conspired with the store manager, who died in 2004, to
                                                                            conduct thousands of illegal electronic food stamp beneﬁt
                                                                            transactions.




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half         9
                                                               Goal 2




Inadequate Controls for SWIP in Puerto Rico                             Contract Provisions Not Enforced Against
Lead to Overclaims of $11.8 Million                                     FSMC Cost Local SFAs $1.3 Million

The Special Wages Incentive Program (SWIP) in Puerto                    FNS administers the National School Lunch Program
Rico subsidizes wages for employers hiring participants in              (NSLP) and the School Breakfast Program (SBP) at the
the Nutrition Assistance Program (NAP), the legislatively               Federal level. A State agency administers the programs at
authorized replacement of the Food Stamp Program in                     the local level, and monitors and assists local school food
Puerto Rico. Our review of the employment program                       authorities (SFA), who may contract with food service
found the program in need of signiﬁcant and lasting reform              management companies (FSMC) to operate their nonproﬁt
because it lacked clearly deﬁned program objectives and                 food service operations. Although FSMCs can provide most
performance measures. As a result of our concerns, the                  of the routine administration of the food service operations,
Puerto Rico Department of the Family (DOF) voluntarily                  the SFA retains the responsibility of ensuring that food
froze employment referrals under SWIP on May 6, 2005,                   operations comply with program regulations.
and later determined that it would end the program.                        We found that a large nationwide FSMC did not pass on
   We determined that $11.8 million in Federal funds was                to local SFAs at least $1.3 million in incentives, discounts,
not properly supported with matching funds from the                     rebates, etc., it had received from food manufacturers for
Commonwealth or from the sponsors under contract with                   food, beverage, and supply purchases in 106 contracts. FSMC
DOF to provide referral services to the NAP participants.               oﬃcials asserted that SFAs received lower prices overall
We recommended that FNS recover these funds from the                    because the purchase incentives subsidized management
Commonwealth. We also determined that the ﬁxed rate                     fees, keeping its fees lower than any other FSMC. In reality,
used to reimburse the sponsors was signiﬁcantly higher                  the audited FSMC was paying more than a second FSMC
than the operating costs of sponsors; for one sponsor the               we compared it to, and, in turn, the SFAs were likely paying
reimbursement was more than 300 percent of the sponsor’s                more to the audited FSMC for comparable items.
reported operating costs. We questioned the appropriateness                State agencies responsible for overseeing the SFAs’
of this high level of reimbursement. We recommended that                contracts did not have procedures in place to ensure that
FNS strengthen oversight controls at both the Federal and               the incentive provisions were enforced. Generally, Federal
Commonwealth government levels to ensure that Federal                   regulations require “a contract administration system which
funding is properly and eﬀectively used.                                ensures that contractors perform in accordance with the
   Our report established basic guidelines for strengthening            terms, conditions, and speciﬁcations of their contracts or
controls for the employment program that will succeed                   purchase orders.” Current FNS regulations do not speciﬁcally
SWIP. FNS agreed to require DOF to clearly deﬁne the                    state that State agencies and local SFAs are responsible for
replacement program’s objectives and establish oversight                enforcing contract provisions. However, FNS has proposed
controls to ensure that the program’s objectives are met and            regulations to clarify that State agencies must check SFA
that the program operates successfully. FNS also agreed to              contracts for compliance prior to SFAs signing contracts
establish and pursue the claim against the Commonwealth.                with FSMCs on a yearly basis. The proposed regulations
(Audit Report No. 27099-60-At, SWIP in Puerto Rico)                     also require that companies providing food management
                                                                        services identify all incentives (discounts, rebates, and other
                                                                        applicable credits) when billing an SFA.
                                                                           FNS generally agreed to instruct the State agencies to
                                                                        work with SFAs to evaluate FSMC contract compliance
                                                                        pursuant to the terms of the contracts. FNS stated that
                                                                        agency policy prohibits the retention of earned income or
                                                                        prompt payment discounts earned by FSMCs only when
                                                                        the amounts are earned using funds advanced by the SFA.




  10    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                                 Goal 2




We maintain that all costs billed by the company to its                   outside employment policy, the household contact policy, and
SFAs should be the net costs incurred by the company                      monitoring staﬀ levels; and (3) improve its overall internal review
for food, beverages, and supplies purchased on behalf of                  process and collect the $265,347 in Federal funds resulting from
the SFA. (Audit Report No. 27601-15-KC, NSLP, Cost-                       court-ordered restitutions. (Audit Report No. 27010-18-Ch,
Reimbursable Contracts With an FSMC)                                      Monitoring of CACFP Providers in Minnesota)

Cafeteria Employee Pleads Guilty to                                       Day Care Facility Owner Pleads Guilty to
Embezzling School Lunch Funds                                             Submitting False Statements

In March 2006, a former food service director was sentenced               In March 2006, the former owner of an Illinois day
in Federal court in Pittsburgh, Pennsylvania, to 12 months                care facility was sentenced to 12 months of probation
of home conﬁnement, followed by 24 months of probation,                   and ordered to pay $25,000 in restitution to USDA. In
and ordered to pay $18,239 in restitution. The former                     December 2005, the day care owner had pled guilty to
director, working at the Avella School District, embezzled                submitting false claims for reimbursement under CACFP.
$18,239 from the USDA School Lunch Program from                           From 1998 to 2002, the owner and her employees falsely
1999 through 2003. The USDA School Lunch Program                          reported information, such as the number of meals
is vital to ensuring that children throughout the United                  served, for reimbursement purposes. The day care owner
States are receiving nutritional meals essential for healthy              fraudulently received $25,684 from USDA and $700,000
growth and development. The former director resigned in                   from other childcare subsidy programs.
October 2003 and in November 2005 pled guilty to theft
of Government funds.                                                      Georgia Needs To Improve Management
                                                                          Controls Over Methods To Estimate WIC
Minnesota’s Implementation of New CACFP                                   Administrative Costs
Rules Did Not Improve Program Oversight
                                                                          For the FNS-administered WIC Program, we examined the
We evaluated the Minnesota Department of Education’s                      FNS Southeast Regional Oﬃce and the Georgia Department
(State agency) oversight of the Child and Adult Care Food                 of Human Resources’ (State agency) controls over WIC
Program (CACFP), emphasizing the implementation of                        administrative costs. The State agency allocated salary costs
several new rules implemented by FNS to address past abuse.               to the WIC Program for employees who work on both WIC
Our review disclosed that the State agency was not prepared               and other programs, using random samples to statistically
to fully implement the requirements of a new edit check that              project the percentage of time the workers spend on WIC
would identify meal claims exceeding a maximum level. The                 activities. Inadvertently, employees whose salaries were
State agency and 2 of its 10 sponsors also did not properly               funded 100 percent by WIC were included in these studies.
implement other key components of the new rules, such as                  These employees should not have been included in the studies
the serious deﬁciency process and the policies for restricting            because all of their salary costs were already charged directly to
outside employment. Finally, the State agency did not take                the WIC Program. Including these employees in the random
appropriate action to secure and return to FNS $265,347 in                samples resulted in inﬂated administrative costs charged to
court-ordered restitutions for fraudulent provider activities             the WIC Program. The State agency also has not developed
involving four day care home providers.                                   veriﬁcation procedures for random moment sample study
   FNS agreed to: (1) require the State agency to employ                  results. This procedure should include a method by which
procedures to comply with the new rules and provide FNS                   sample takers and employees, at the time of observation,
with its procedures and timeframes for implementing the new               sign a statement attesting to the validity of the observation.
edit check; (2) amend its procedures and issue guidance to its            During FY 2004, $89.8 million was allocated based on the
sponsors in regard to the new serious deﬁciency process, the              studies.




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half               11
                                                                Goal 2




   We also found that personnel costs of more than                       from 1999 through 2004. In general, we determined that the
$111,000 were charged to WIC without proper support                      unauthorized assistance occurred because FLP loan oﬃcials
or justiﬁcation. Finally, the State agency did not have                  did not follow established procedures for determining
procedures in place to ensure the timely resolution of                   applicants’ eligibility and FSA’s automated management
independent Certiﬁed Public Accountant audit ﬁndings.                    tools lacked applicants’ complete debt history.
As a result, no actions were taken to address about                         In response to the audit, FSA again reviewed these
$5.7 million in questioned costs to WIC and correct the                  127 loans and determined that 14 loans totaling $1,511,860
associated deﬁciencies. FNS generally agreed to our series               were eligible. The agency then began to collect the remaining
of recommendations to address the deﬁciencies noted and                  113 ineligible loans totaling $7,541,144. Further, FSA
recover more than $111,000 in questioned costs. (Audit                   issued guidance to help employees determine whether
Report No. 27002-2-At, WIC Administrative Costs in                       applicants have received prior FLP debt forgiveness and is
Georgia)                                                                 developing a new automated system that will automatically
                                                                         display applicants’ complete debt histories. The system is
Former Indiana Employee and Co-                                          scheduled for completion in the summer of 2006. (Audit
conspirators Sentenced for Diverting Funds                               Report No. 03016-2-Te, FSA Debt Forgiveness Restrictions
                                                                         on Borrower Eligibility for FLP)
The former director of the FNS-funded Indiana Manpower
and Comprehensive Training (IMPACT) program and                          FSA’s Controls Over Disaster Payments Need
three co-conspirators pled or were found guilty of diverting             Strengthening
approximately $600,000 from the IMPACT program to
themselves from June 2001 through April 2004. In January                 FSA issued approximately $2.5 billion nationwide in 2001
2006, the former director and two co-conspirators were                   and 2002 Crop Disaster Program (CDP) payments. To
sentenced to 72, 60, and 24 months of incarceration,                     the extent practicable, CDP payments are based on the
respectively, as well as probation and community service,                producers’ calculated crop insurance production losses. We
and were ordered to pay restitution ranging from $16,500                 reviewed approximately $1.8 million of those payments in
to $261,500 each. The remaining co-conspirator awaits                    three Texas counties and identiﬁed improper CDP payments
sentencing.                                                              totaling $261,767 and related improper Noninsured Crop
                                                                         Disaster Assistance Program payments totaling $116,938.
More Than $9 Million in Loans Issued                                        Generally, the improper payments were made to
to Ineligible Applicants With Prior Debt                                 producers with crop insurance that was based on group risk
Forgiveness                                                              (rather than veriﬁed losses per individual producer) and to
                                                                         producers who, under production contracts with vendors,
When farmers and ranchers are unable to repay their Farm                 did not have title to the crops. The improper payments were
Loan Programs (FLP) loans in full, Congress requires                     attributed to FSA county oﬃce employees’ lack of training
that FSA consider them ineligible for future loans. Using                on procedures for CDP applications that require special
data-mining techniques, we reviewed the 139,466 loans                    handling, e.g., applications for producers with group risk
active in FSA’s database (as of October 1, 2004) to isolate              crop insurance, etc. Further, we found FSA’s CDP quality
239 borrowers who were potentially ineligible for                        control review process was neither functioning as designed
having received prior debt forgiveness. Our review of six                nor adequate to detect the processing errors identiﬁed by
potentially ineligible borrowers revealed that three were, in            the audit.
fact, ineligible and should not have received FLP loans. FSA                FSA agreed to improve its CDP review process by
subsequently reviewed all 239 borrowers and conﬁrmed that                completing all required reviews on time, providing
98 (41 percent) of the borrowers were ineligible and should              appropriate training for reviewers, and expanding the
not have received 127 loans, totaling $9,053,004, issued                 universe for second-party reviews. FSA also agreed to




  12     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                              Goal 2




have FSA State oﬃce personnel better train county                      Oklahoma Couple Sentenced for Conversion
oﬃce employees to (1) identify and process applications
                                                                       of Collateral on FSA Loans
that require special handling and (2) review production
contracts. FSA addressed some of the concerns in training
                                                                       An Oklahoma couple was charged in June 2005 with
and procedures for the 2003/2004/2005 CDP. FSA also
                                                                       conspiracy, conversion of collateral, forfeiture, and
agreed to improve controls for future disaster programs and
                                                                       bankruptcy fraud in connection with their scheme to
began to correct the identiﬁed improper payments. (Audit
                                                                       defraud FSA of mortgaged property totaling $90,884. The
Report No. 50601-9-Te, Disaster Assistance Payments for
                                                                       subjects, from March 2002 through October 2003, sold
Crop Years 2001 and 2002)
                                                                       cattle mortgaged to FSA without authorization and without
                                                                       disbursing the payments to FSA. The cattle were secured
Michigan Producer Sentenced to Jail for                                by lien to FSA as collateral for $171,900 in outstanding
Illegal Commodity Sale                                                 FSA loans. In June 2005, the subjects were arrested by OIG
                                                                       agents, and, as part of the criminal forfeiture action, OIG
An FSA borrower in Michigan pled guilty for illegally                  agents ﬁled liens on four pieces of property purchased with
selling approximately 44,000 bushels of corn and soybeans              the converted funds. In September 2005, both subjects
that had been pledged as loan security. In December 2005,              were convicted by jury trial. In March 2006, the subjects
a Federal district judge in Bay City, Michigan, sentenced              were each sentenced to 27 months of incarceration, to be
the individual to 5 months in prison, 5 months of home                 followed by 2 years of supervised release, and were ordered
conﬁnement, and approximately $199,000 in restitution.                 to pay joint restitution of $115,000. One subject was also
During 2004, the borrower pled guilty to State forgery                 ﬁned $5,000.
charges stemming from a similar commodity conversion in
which he had defrauded a private lender of approximately               Arkansas Farmer Converts Crop Proceeds
$30,000.
                                                                       In February 2006, an Arkansas farmer was sentenced to
Iowa Family Sentenced in $3.3 Million Fraud                            serve 6 months of home conﬁnement and 36 months of
                                                                       probation, and was ordered to pay $101,044 in restitution
As reported for the ﬁrst half of FY 2005, a husband, his               after pleading guilty to conversion of mortgaged property.
wife, and their son pled guilty to various counts of fraud             From November 2002 to December 2003, the farmer sold
and false statements related to their attempts to obtain               approximately 28,319 bushels of FSA-mortgaged soybeans
$3.3 million in fraudulent program payments and crop                   for $158,252 without FSA approval. In March 2004, the
insurance. In November 2005, the husband was sentenced                 farmer also sold 19 pieces of mortgaged farm equipment
to 20 months in Federal prison, followed by 36 months of               for $19,151 without FSA consent. The proceeds of the sales
supervised release, and was ordered to pay $2.3 million in             were not used to make payments on his two FSA operating
restitution. His wife was sentenced in September 2005 to               loans totaling $130,870. The farmer used the majority of
3 months of home conﬁnement and 6 months of probation,                 the proceeds to purchase a wedding ring, vehicles, and a
and was ordered to pay $93,000 in restitution. Their son               trip to Cozumel, Mexico, as well as pay oﬀ other debts and
was sentenced in November 2005 to 5 years of probation                 invest in real estate.
and was ordered to pay $116,000 in restitution. The
husband and wife were barred for life from participating in            Four Cotton Producers in California Did Not
any USDA farm-related subsidy or crop insurance program,
                                                                       Meet Program Eligibility Requirements
and the son was barred until November 2010. Two others
involved in the scheme were placed on pre-trial diversion
                                                                       In California, two insurance providers made payments to
and ordered to pay $212,812 in restitution.
                                                                       four cotton producers who claimed that they were prevented
                                                                       from planting due to failure of the irrigation water supply.




                                                              USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half        13
                                                                  Goal 2




The insurance providers did not verify, as required, whether               Executive Director of Jazz Society Sentenced
the cause of loss was general in the area and whether it
                                                                           for $323,000 Loan Fraud
prevented other producers with similar circumstances from
planting. As a result, the four producers were improperly
                                                                           In 2001, the President and Executive Director of a Montana
paid $96,489 in prevented planting indemnities. An
                                                                           jazz society provided false information to RD and two
oﬃcial from the Risk Management Agency (RMA) regional
                                                                           banks to obtain loans of $323,000 to purchase and renovate
oﬃce stated that there was no lack of irrigation water in
                                                                           a historic building. She manufactured purchase orders and
California during 2003 and agreed with our analysis. RMA
                                                                           sales invoices, forged signatures, and retained most of the
generally agreed with our ﬁndings and will notify OIG of
                                                                           funds for her personal use. After being indicted in May 2005
the results of their review and actions taken. (Audit Report
                                                                           on ﬁve counts of making false statements and mail fraud,
No. 05099-11-SF, Prevented Planting Payments for Cotton
                                                                           she pled guilty in September 2005. In February 2006, she
Due to Failure of the Irrigation Water Supply in California
                                                                           was sentenced to serve 71 months in Federal prison and to
and Arizona – Crop Year 2003)
                                                                           pay restitution of $108,558. At the time of this fraud, the
                                                                           subject was on State probation for theft, forgery, deceptive
Sentencings Completed in $13 Million North                                 practices, and issuing bad checks. As a result of the Federal
Carolina Crop Insurance Fraud Case                                         charges, her State probation was revoked and she is now
                                                                           serving 25 years in State prison. The Federal sentence will
As reported last period, an extensive 3-year investigation                 follow her State sentence.
revealed that the owners of a North Carolina corporation
received more than $9.28 million in crop insurance payments                Executive Director, Two Employees of Non-
and attempted to obtain an additional $3.8 million, based
                                                                           Proﬁt Sentenced for Embezzlement
on an elaborate scheme of providing false documents to
insurance companies reinsured by RMA. As of December
                                                                           In August and December 2005, the executive director and
2005, all subjects in this investigation were sentenced.
                                                                           two employees of a Mississippi non-proﬁt organization pled
Sentences ranged from 8 to 76 months of imprisonment,
                                                                           guilty to embezzling $83,349 in Self-Help Housing Grant
while forfeiture and restitution totaled $7.3 million and
                                                                           Funds and Rural Housing Service (RHS) Loans obtained
$9.15 million, respectively. Throughout 2003 and 2004,
                                                                           through Rural Development (RD). After the non-proﬁt
eight individuals pled guilty to a variety of charges involving
                                                                           organization received $244,000 in grant funds in September
a complex conspiracy to defraud the Federal Crop Insurance
                                                                           1998, the executive director and the two employees
Corporation (FCIC) and several private insurance companies
                                                                           fraudulently issued additional paychecks to themselves
of more than $13 million from 1997 to 2001.
                                                                           and forged the signatures of contractors on checks and
                                                                           cashed them in a double-billing scheme. All the employees
Former Michigan Legislative Assistant                                      pled guilty to embezzlement and received sentences that
Arrested in Africa                                                         ranged from 6 months of incarceration with 36 months of
                                                                           supervised release, to 36 months of probation. Restitution
A former legislative assistant to a U.S. Congressman from                  totaled $89,348.
Michigan was arrested in Accra, Ghana, after ﬂeeing to
avoid sentencing in an OIG embezzlement investigation. As
reported for the ﬁrst half of FY 2005, the former staﬀer was
convicted of nine counts of fraud for stealing approximately
$40,000 in USDA and bank funds through his operation
of a national farmer’s organization. He faces charges of
failure to appear at sentencing and passport fraud. This
investigation was conducted jointly with the FBI.




  14     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                              Goal 2




GOVERNMENTWIDE ACTIVITIES – GOAL 2


Review of Legislation, Regulations, Directives,                        Participation on Committees, Working Groups,
and Memoranda                                                          and Task Forces

■   OIG staﬀ reviewed FNS’ proposed rule entitled                      ■   The Inspector General (IG) is a member of the
    “Nutrition Services Incentive Program and                              President’s Council on Integrity and Eﬃciency’s
    Charitable Institutions,” which is part of the agency’s                (PCIE) Legislation Committee. In the past 6 months,
    management of donated commodities in the Child                         the Legislation Committee dealt with several issues
    Nutrition Programs. This proposed rule was generated                   and topics of interest to the Federal OIG community,
    in response to OIG audit work that found that                          including the provisions of H.R. 2489, a bill that
    some school food authorities were not receiving the                    focuses on the authorities and operations of IGs, both
    value of all donated foods provided to food service                    as individual agency oﬃcials and as participants in an
    management companies that manage meal programs                         enhanced community-wide, Executive Branch council.
    for the schools. OIG generally concurred with the                      The Legislation Committee also reviewed and opined
    requirements as proposed but identiﬁed two points                      on the status of the numerous bills introduced in the
    that needed to be clariﬁed in the regulations. Although                aftermath of Hurricane Katrina that would either
    FNS clearly explained the intent of the proposed rule                  aﬀect IG authorities or create OIGs with jurisdiction
    in the preamble to the proposed rule, the regulations                  for Federal hurricane relief operations.
    needed to specify the terms and process for crediting
    the value of donated foods to the recipient agency.                ■   OIG staﬀ members have been participating on
    First, the regulations should deﬁne the use of “pre-                   the PCIE’s Homeland Security Roundtable. IG
    crediting” for donated foods, where the food service                   representatives from all of the Federal agencies
    management company deducts the value of donated                        involved in hurricane relief have been working to
    foods from the established ﬁxed price per meal if                      ensure that: (1) agency internal controls are in place to
    provided for in its contract with the recipient agency.                prevent fraud, waste, and abuse; (2) IG investigative
    The regulations should also clearly state that the                     activities are coordinated with the Department
    food service management company must provide                           of Justice’s (DOJ) Hurricane Katrina Task Force;
    an additional credit for the value of any donated                      (3) agency stewardship plans for hurricane relief
    foods not accounted for in the ﬁxed price per meal.                    activities are in place and operating as intended; and
    Second, the regulations should clearly state that the                  (4) the IG community is executing its hurricane relief
    food service management company must credit the                        oversight eﬀorts in a coordinated fashion so that its
    recipient agency for the value of the donated foods                    resources are utilized as eﬃciently and eﬀectively
    even though it may not use the foods in the recipient                  as possible. The IG and Assistant Inspector General
    agency’s meal service.                                                 for Investigations participated in a meeting in New
                                                                           Orleans, Louisiana, with the Department of Justice
                                                                           (DOJ) and other principal investigative entities as
                                                                           DOJ formed the Hurricane Katrina Task Force.




                                                              USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half         15
                                                                     Goal 2




ONGOING AND PLANNED REVIEWS FOR GOAL 2

Topics that will be covered in ongoing or planned reviews under Goal 2 include:

Hurricane Relief Initiatives:                                                 ■   Direct and Countercyclical Program payment (FSA),
■        barge movement and transportation differential                       ■   Conservation Reserve Program (FSA),
         agreements (Commodity Credit Corporation (CCC)),
                                                                              ■   interest assistance on guaranteed farm loans (FSA),
■        emergency and alternative grain storage (FSA and CCC),
                                                                              ■   review of adjusted gross income
■        Emergency Watershed Protection Program, Dead
         Animal Debris Disposal Project, and Emergency                            limitation (FSA and NRCS),
         Conservation Program (Natural Resources                              ■   zero acreage reporting abuse (RMA),
         Conservation Service (NRCS) and FSA),
                                                                              ■   Asian soybean rust (RMA),
■        accountability of assistance for single
         and multi-family housing (RHS),                                      ■   Florida Hurricane Disaster Program crop
■        FNS Disaster Food Stamp Program,                                         insurance requirements (RMA),
■        2005 Hurricane Disaster Programs created with funds                  ■   RMA implementation of $500,000
         under Section 32 of the Act of August 1935, including                    claim decision process,
         the Hurricane (crop), Tree, Feed, and Livestock Indemnity
         Programs and Aquaculture Grants (FSA), and                           ■   group-risk crop insurance and group-
■        Emergency Forestry Conservation Reserve                                  risk income protection (RMA),
         Program (FSA),                                                       ■   adjusted gross income limitation (FSA and NRCS),

Other Goal 2 Work:                                                            ■   community facilities (RHS),

■        continued monitoring of Electronic Beneﬁts                           ■   Rural Rental Housing (RRH) Program, Loan
         Transfer implementation (FNS),                                           Prepayment and Restrictive Use Agreements (RHS),

■        the Summer Food Service Program (FNS),                               ■   RRH project maintenance and reserve
                                                                                  account funding – Florida (RHS),
■        WIC Program accountability and vendor monitoring (FNS),
                                                                              ■   Single-Family Housing (SFH) Direct Loan
■        WIC Program in Puerto Rico (FNS),
                                                                                  Program origination practices (RHS),
■        Food Stamp Employment and Training Program (FNS),
                                                                              ■   evaluation of SFH borrower income
■        review of the Child Nutrition Labeling Program (FNS),                    veriﬁcation – Florida (RHS),

■        implementation of the Tobacco Transition                             ■   rental housing construction costs (RHS),
         Payment (Tobacco Buyout) Program (FSA),
                                                                              ■   Multi-Family Housing Program
■        programmatic treatment of crop base on land                              – select project (RHS), and
         included in conservation easements (FSA and
                                                                              ■   RBS Intermediary Re-Lending Program.
         Natural Resources Conservation Service (NRCS)),




The ﬁndings and recommendations from these eﬀorts will be covered in future semiannual reports as the relevant audits and
investigations are completed.




    16     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
Management of Public Resources
OIG Strategic Goal 3:                                                    management decision within 1 year, and 84.2 percent of
                                                                         our investigative cases had criminal, civil, or administrative
                                                                         action taken. OIG issued 22 audit reports under Goal 3
Increase the efﬁciency and effectiveness with                            during this reporting period. OIG investigations under
which USDA manages and employs public                                    Goal 3 yielded 30 indictments, 16 convictions, and about
assets and resources, including physical and                             $23.6 million in monetary results during the reporting
information resources                                                    period.


OIG conducts audits and investigations that focus
on, for example, improved ﬁnancial management and                        EXAMPLES OF AUDIT AND INVESTIGATIVE WORK
accountability, information technology (IT) security                     FOR GOAL 3
and management, protection of public assets, employee
corruption, natural resources, research, and the Government              GIPSA’s Management and Oversight of P&SP
Performance and Results Act. Our work in this area is vital              Need Improvement
because the Department is entrusted with $128 billion in
public resources annually and hundreds of billions of dollars            In response to an April 2005 Congressional request, we
more in ﬁxed assets such as the 192 million acres of national            evaluated the Grain Inspection, Packers and Stockyards
forests and wetlands. The eﬀectiveness and eﬃciency with                 Administration’s (GIPSA) management and oversight
which USDA manages its assets are critical. USDA depends                 of the Packers and Stockyards Programs (P&SP). Of
on IT to eﬃciently and eﬀectively deliver its programs and               particular concern was the possible overstatement of the
provide meaningful and reliable ﬁnancial reporting. One of               number of investigations that were conducted by the
the more signiﬁcant dangers USDA faces is a cyberattack on               agency’s competition division as reported in GIPSA annual
its IT infrastructure, whether by terrorists seeking to destroy          reports. We found that P&SP’s tracking system counted
unique databases or criminals seeking economic gains.                    all P&SP activities as “investigations” because there was
    In ﬁrst half of FY 2006, we devoted 44.9 percent of our              no policy to better deﬁne its activities. The activities that
total audit and investigative resources to Goal 3. Further,              P&SP’s tracking system counted as investigations included
96.2 percent of the time we spent directly on Goal 3 was                 monitoring publicly available data, sending routine letters
assigned to critical/high-impact work. A total of 97.1 percent           to request company-speciﬁc information, and performing
of our audit recommendations under Goal 3 resulted in                    onsite reviews of companies.




       Management Challenges Addressed Under Goal 3


       ■     Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 1 and 2)

       ■     Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed (also under Goal 2)

       ■     Continuing Improvements Needed in IT Security (also under Goal 1)

       ■     Reducing Improper Payments Continues To Be a Priority of Congress and the Administration




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half          17
                                                               Goal 3




   We identiﬁed three material weaknesses that had not been                However, USDA’s Oﬃce of Civil Rights (CR) has not
disclosed in the agency’s annual Federal Managers Financial             conducted compliance reviews of FSA programs in more
Integrity Act report. P&SP had diﬃculties: (1) deﬁning                  than 5 years to determine whether the agency’s practices
and tracking investigations, (2) planning and conducting                comply with civil rights statutes. In addition, because FSA
competition and complex investigations, and (3) making                  has largely focused on nationwide initiatives, local outreach
agency policy. As a result, P&SP’s tracking system could not            activities vary markedly from county to county, resulting in
be relied on, competition and complex investigations were               dissimilar levels of service.
not being performed, and timely action was not being taken                 USDA agreed to direct CR to resume conducting
on issues that impact day-to-day activities.                            compliance reviews. FSA should authorize the National
   Despite prior recommendations, P&SP did not                          Oﬃce Outreach staﬀ to oversee and direct State and county
(1) eﬀectively integrate economists into the investigations,            oﬃces’ outreach activities and establish a nationwide strategy
(2) empower the agency’s legal specialist to consult with               for the coordination of outreach activities at the Federal,
USDA’s Oﬃce of the General Counsel (OGC), (3) hire a                    State, and local levels. FSA and CR agreed to take corrective
manager with experience in leading P&SP investigations,                 action on ﬁve of the report’s seven recommendations, and
and (4) develop a teamwork approach for investigations                  we are working to resolve two recommendations concerning
with P&SP’s economists and OGC’s attorneys.                             outreach eﬀorts. (Audit Report No. 03601-11-At, Minority
   GIPSA agreed to deﬁne investigations by diﬀerentiating               Participation in FSA Programs)
between performing onsite reviews and obtaining publicly
available data; record and validate data in the tracking                Relief Determinations Not Properly Tracked
system; timely identify the work to be performed, prepare               and Analyzed To Prevent Errors
and approve work plans, perform the ﬁeldwork and analysis,
and report on the results; promptly receive, review, and act            The “ﬁnality rule” and “equitable relief ” allow the forgiveness
on policy issues and guidance; and perform internal reviews             of repayment in those cases when a farm program participant
to monitor and report on agency activities. (Audit Report               acted in good faith but FSA or the producer erred to cause
No. 30601-1-Hy, Oversight of P&SP)                                      an overpayment. Our review of the States’ manual equitable
                                                                        relief reports submitted to the national oﬃce for calendar
Minority Farmers’ Participation in FSA Loan                             year 2003 and our detailed review of equitable relief
Programs Has Increased, but Improvements                                determinations in three States found that the $694,629 of
Are Still Needed                                                        approved equitable relief reported to Congress for that year
                                                                        was understated by at least $1,894,254. Further, FSA did not
In reviewing USDA’s ongoing eﬀorts to improve its                       analyze its equitable relief and ﬁnality rule cases to identify
relationship with minority farmers and ranchers, we                     weaknesses in program delivery—neither the national
revisited our 1997 report on FSA’s Farm Loan Programs.                  oﬃce nor the three State oﬃces reviewed had analyzed
We found that (1) complaints decreased from 474 in 1997                 the more than $2.7 million of approved 2003 requests
to 113 as of January 2005, (2) the number of days to process            identiﬁed during the audit. FSA agreed to implement an
a minority loan application from receipt to loan closing                automated system to track ﬁnality rule and equitable relief
was reduced from 92 days (80 days for non-minorities) to                determinations, analyze the information, and share the
65 days (55 days for non-minorities), and (3) delinquent                information with FSA’s Financial Management Division
minority borrowers decreased from 1,371 (9,323 for                      for purposes of reporting on improper payments under
non-minorities) to 115 (343 for non-minorities). Also,                  the Improper Payments Information Act of 2002 (IPIA).
County Oﬃce Committee elections nationwide showed an                    (Audit Report No. 03601-44-Te, Tracking Finality Rule
82 percent increase in minority membership from 191                     and Equitable Relief Decisions)
(2.4 percent) of 8,148 members in 1997 to 348
(4.4 percent) of 7,872 members in 2004.




  18    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                                Goal 3




Controls for Monitoring Foreign Food Aid                                 RMA Needs Written Procedures for New Crop
Agreements Need Strengthening                                            Insurance Products Submitted by Private
                                                                         Companies
FAS administers food aid programs worldwide, largely
through grants to intermediaries known as private                        RMA supervises the Federal Crop Insurance Corporation
voluntary organizations (PVO). In March 1999, we issued                  (FCIC), which is a wholly owned Government corporation
a report recommending that FAS strengthen its monitoring                 that oﬀers subsidized, multi-peril crop insurance through a
controls over PVOs operating the Food for Progress grants.               private delivery system by means of reinsured companies.
In our current eﬀort, we evaluated FAS’ actions to address               These are private insurance companies that perform the
management control weaknesses identiﬁed in our earlier                   insurance marketing, distribution, servicing, training,
report. Our overall objective was to determine whether                   quality control, and loss adjustment functions in return for
FAS’ management controls are suﬃcient to ensure that                     a percentage reimbursement of the premiums and a share of
PVOs use program funds for allowable purposes. Although                  annual marketing gains.
six of the eight PVOs reviewed generally complied with                      Section 508(h) of the Food, Agriculture, Conservation,
their agreements, we found that FAS had not implemented                  and Trade Act of 1990 allows private companies to submit
many of the corrective actions it agreed to in response to               new crop insurance products (e.g., insurance to cover new
OIG’s earlier report. In general, we found that FAS’ controls            crops that have not previously been covered or products
for monitoring PVOs were inadequate, thereby reducing                    that switch from multi-peril crop insurance to group risk)
its assurance that the PVOs were eﬀectively meeting the                  to RMA for approval and reinsurance. The Agricultural
program objectives. Due to these weaknesses, one PVO was                 Risk Protection Act of 2000 (ARPA) authorized the
not held accountable for violations of its grant agreements,             reimbursement of research, development, and maintenance
leading to the loss of $2.2 million in grant funds, and did              costs of these privately developed products. The
not fully accomplish the objectives of its food aid programs             overall objective for our review was to evaluate the
in Angola and the Ivory Coast. FAS did not pursue grant                  adequacy of controls over the submission, approval, and
funds lost through PVO mismanagement or identiﬁed in                     reimbursements process over section 508(h) products,
reviews of PVOs’ past performance before approving new                   as well as the procedures used to monitor and review the
grants. FAS also lacked procedures for conﬁrming that                    implementation of these products. For crop year 2004,
PVOs were recognized by their host governments or that                   seven products approved through the section 508(h) process
PVOs had established bank accounts in-country to deposit                 had indemnities of $1,128,924,176 with premiums of
program income and make disbursements.                                   $1,486,664,651. Our review found that formal policies and
   We recommended that FAS implement management                          procedures have not been established for monitoring and
controls that it had earlier agreed to implement—review                  reviewing the performance of such products. In response
semiannual reports, conduct onsite reviews, and complete                 to our recommendations and after our report was issued,
closeout reviews of all food aid agreements. FAS also agreed             RMA implemented standardized procedures for monitoring
to conﬁrm that PVOs have received the recognition of                     and reviewing the new products, including timeframes for
their host government before agreements are ﬁnalized,                    performing contract reviews where necessary, and established
aggressively seek recovery of grant funds lost due to PVO                guidelines for annual evaluations performed by private
mismanagement, and review PVOs’ past performance                         companies, if required in the product’s memorandum of
before approving new food aid agreements. (Audit Report                  agreement. (Audit Report No. 05601-13-Te, New Crop
No. 07016-1-At, PVO Grant Fund Accountability)                           Products Submitted by Private Companies)




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half        19
                                                               Goal 3




FS Needs To Build on Its Partnership                                       FS agreed to (1) require all regions to develop strategic
                                                                        plans with measurable goals, (2) assess the need for full-
Program’s Success
                                                                        time regional coordinators, (3) update INFRA to track
                                                                        accomplishments and cost beneﬁts, and (4) ensure that
To carry out its mission, FS partners with a variety of
                                                                        INFRA data is accurate and timely. FS also agreed to
non-Federal organizations and other private entities in
                                                                        implement a standardized review process to detect any ethical
joint activities in forests, such as conservation eﬀorts,
                                                                        concerns before agreement approval and clarify guidance
building trails, etc. As of August 2004, the agency was
                                                                        for FS staﬀ on the preparation and approval of partnership
involved in 4,500 active partnerships, to which it had
                                                                        agreements, as well as follow up on appropriations to NFF.
contributed $256 million and its partners $211 million.
                                                                        (Audit Report No. 08601-41-SF, FS Collaborative Ventures
In our review of FS’ administration of the partnership
                                                                        and Partnerships with Non-Federal Entities)
program, we found that the agency has taken signiﬁcant
strides to improve its partnership activities. These eﬀorts
include creating a National Partnership Oﬃce to guide the               Arrests Continue To Climb in Operation Talon
agency’s partnership work and developing a “partnership
framework” document, which sets forth the mission of the                OIG began Operation Talon in early 1997 to locate and
program. Nonetheless, many opportunities remain for FS                  apprehend fugitives, many of them violent oﬀenders,
to build on this progress.                                              who are current or former food stamp recipients. As of
   Speciﬁcally, FS had not prioritized strategic planning               March 31, 2006, Operation Talon had resulted in
and reporting requirements for the program. Three regions               10,058 arrests of fugitive felons during joint OIG-State and
had not developed a strategic plan for their programs,                  local law enforcement operations.
and, of the six regions that had, only one included                        During this reporting period, OIG agents from
measurable goals. Further, only three regions had full-time             Indianapolis conducted a Talon operation with the
coordinators to ensure that plans were carried out. For                 Indianapolis Metropolitan Gang Safe Streets Task Force
performance reporting, FS’ database (INFRA) for storing                 and arrested 39 fugitives in Marion County, Indiana.
information about partnership agreements cannot track                   These fugitives were wanted for carjacking, voluntary
overall partnership accomplishments and cost beneﬁts, and               manslaughter, and assorted drug charges. Also during this
contains errors and omissions.                                          reporting period, OIG agents in Nashville, Tennessee,
   Our audit also disclosed that FS should improve oversight            conducted a joint Talon operation with the Montgomery
of partnerships. We found that three FS employees were                  County Sheriﬀ’s Department and Clarksville Police
serving in their oﬃcial capacity on the boards or steering              Department. As a result of this operation, 10 fugitives were
committees of FS partners. In addition, FS did not ensure               arrested, one of whom was wanted in Baltimore, Maryland,
that the partnership agreements contained a complete                    for murder of a rival gang member.
and supported ﬁnancial plan. We determined that 40 of
the 177 partnership agreements reviewed did not contain                 FS Employees Prosecuted for Embezzlement
a ﬁnancial plan and another 47 did not fully document
costs, jeopardizing proper funding and adequate partner                 Three FS employees and a co-conspirator (an unpaid FS
contributions. Finally, although the National Forest                    volunteer) submitted false claims of approximately $60,000
Foundation (NFF) has received more than $10 million                     for local travel reimbursements between 1999 and 2002.
from FS since 1998, FS did not timely account for funds it              Two of the subjects, who were authorized through the
provided to the organization. For 3 consecutive years, NFF              Purchase Card Management System (PCMS) to write
failed to meet the matching requirement for appropriations,             convenience checks drawn on FS accounts, wrote checks
but FS continued to fund it. As a result, NFF accumulated               to each other and to a third subject, based on fraudulent
almost $2.6 million that it was unable to spend on the                  claims for reimbursement for travel expenses with falsiﬁed
approved projects on time.                                              signatures of supervisors. In addition, one subject used




  20    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                               Goal 3




the PCMS account to purchase cell phones and pagers for                 software change requests. OCFO/NFC oﬃcials stated that
USDA security guards and various FS employees, which was                they believed compensating controls had been implemented
not authorized. Three subjects were charged in the Eastern              to mitigate the reported weaknesses. However, because of
District of Virginia, pled guilty to theft of Government                the dislocation of personnel and systems in the aftermath
property, and resigned. One subject was charged in District             of Hurricane Katrina, we were unable to fully evaluate and
of Columbia Superior Court with theft. Three of the                     oﬀer an opinion on the eﬀectiveness of those compensating
subjects were sentenced from July 2005 to January 2006.                 controls. The general control environment, including any
Sentencing ranged from 24 months of supervised probation                identiﬁed compensating controls at OCFO/NFC, will be
to 3 months of imprisonment, with total restitution of                  audited during FY 2006. (Audit Report No. 11401-22-FM,
$62,524 and ﬁnes of $3,620. Sentencing for the remaining                Review of OCFO/NFC General Controls for FY 2005)
subject is pending.
                                                                        USDA’s IT Security Program Continues To Improve
FS Fireﬁghter Pleads Guilty to Setting
Wildland Fires                                                          Although the agencies accelerated their eﬀorts to comply
                                                                        with Federal information security requirements during the
Sentencing is pending for an FS ﬁreﬁghter after a February              ﬁscal year, IT management and security remain a material
2006 guilty plea to three counts of setting wildland ﬁres on            weakness within the Department. The Department
the Los Padres National Forest in California. The ﬁreﬁghter             stated that, since October 2005, it has made progress in
intentionally set three ﬁres in July, August, and September             information security as highlighted by the signiﬁcant
2004 that burned 800 acres and cost $2.5 million in ﬁre                 improvements in the Cyber Security scorecard, which tracks
suppression costs.                                                      agency progress on the areas required under the Federal
                                                                        Information Security Management Act of 2002 (FISMA).
Former National Finance Center (NFC)                                    Speciﬁcally, the Department issued revised certiﬁcation and
Manager Sentenced for False Claims                                      accreditation (C&A) guidance in October 2005 to ensure
                                                                        that documentation meets Federal requirements. The
In June 2005, a former supervisory program analyst pled                 Department’s incident handling policy has been recognized
guilty to making and presenting false and fraudulent                    by the U.S. Computer Emergency Readiness Team as a
claims against the Government. From January 2000                        good process that ensures incidents are handled timely.
through December 2002, the NFC employee submitted                       Information security training was demonstrated in two
18 fraudulent travel vouchers totaling $25,037 in                       venues: (1) approximately 150 employees throughout
connection with oﬃcial trips to Washington, D.C. In                     USDA attended the November 2005 IT Summit, and
November 2005, the former NFC employee was sentenced                    (2) an estimated 3,500 USDA employees took the
to 36 months of probation, ﬁned $5,100, and ordered to                  Computer Security Awareness Training course that was
pay $14,218 in restitution.                                             updated in January 2006. Finally, USDA’s Cyber Security
                                                                        Oﬃce has completed action on 50 percent of the audit
IT Security Controls at NFC Improve, but                                recommendations and will complete the remaining items
Additional Actions Are Necessary                                        by the end of the ﬁscal year. Although the Department
                                                                        reported improvements in its overall Security Program,
While we noted that OCFO/NFC) has taken signiﬁcant                      OIG has not independently veriﬁed or tested these
corrective actions during the ﬁscal year, a qualiﬁed opinion            improvements. The recommendations we made to correct
on its IT security controls was issued due to ongoing                   the deﬁciencies identiﬁed in this evaluation have been
problems regarding improper access controls, unﬁnished                  documented in other agency reports, and we made no
background investigations for individuals with access to                additional recommendations. (Audit Report No. 50501-5-
critical applications, and inadequate test documentation for            FM, FY 2005 FISMA Report)




                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half       21
                                                                Goal 3




USDA’s System Accreditations Lack Reliable                               shifted the management and security responsibilities of
                                                                         the network operating environment from those individual
Documentation and Testing
                                                                         SCAs to the Department OCIO’s Information Technology
                                                                         Services (ITS).
Our audit found that (1) USDA agencies had not followed
                                                                            We found that ITS had begun or planned to implement
National Institute of Standards and Technology (NIST)
                                                                         controls over the following weaknesses: (1) OCIO had
and departmental regulations when preparing system
                                                                         certiﬁed and accredited the two systems we reviewed despite
documentation during Phase I of its IT security C&A
                                                                         missing, inaccurate, or incomplete C&A documentation;
eﬀorts, (2) risk ratings were inconsistent with Federal
                                                                         (2) ITS had not ﬁnalized its operating procedures;
standards, (3) independent testing and evaluation processes
                                                                         (3) ITS’ written agreements were too overarching to hold
did not ensure that controls were in place and operating
                                                                         either ITS or the SCAs accountable for security; (4) ITS
eﬀectively, and (4) oversight and monitoring of the C&A
                                                                         had not accurately inventoried computer equipment on
process could be improved signiﬁcantly.
                                                                         the common computing environment (CCE) network;
   The Oﬃce of the Chief Information Oﬃcer (OCIO)
                                                                         (5) ITS had not begun periodic scanning of the CCE
agreed to (1) require the agencies to reevaluate the
                                                                         network though SCAs had ceased doing so; (6) ITS was
accreditation decision and the documentation, and ensure
                                                                         not prepared to take over controlling access to the CCE at
that the accreditation is fully supported, (2) establish
                                                                         the time of convergence and allowed the SCAs to continue
processes and controls to ensure that agencies establish the
                                                                         with their current policies, which were inconsistent and
proper risk ratings, (3) establish a policy to require that
                                                                         did not provide eﬀective security; and (7) ITS had not
all agencies ensure that the security testing and evaluation
                                                                         implemented adequate physical and environmental controls
process enables the accrediting oﬃcial to render an
                                                                         over much of USDA’s sensitive computer equipment.
informed decision, and (4) establish controls to periodically
                                                                            ITS agreed to establish policies and procedures, including
evaluate the accuracy of agency information. The
                                                                         controls to ensure that (1) supportable C&A documentation
Department has initiated a concurrent review process
                                                                         is prepared, as prescribed; (2) documentation is clear and
within OCIO to ensure that complete and accurate
                                                                         consistent for all activities and functions it has assumed;
documentation exists before ﬁnal accreditation. OCIO
                                                                         (3) a current inventory for the CCE network is maintained;
believes that this process will ensure compliance with all
                                                                         (4) system vulnerabilities are timely identiﬁed and
Federal requirements and that suﬃcient testing is being
                                                                         mitigated; (5) employee access adheres to the concept
accomplished. It should be noted that OIG has not tested
                                                                         of least privilege (i.e., restricting access to only what is
this process. The Department has completed ﬁve of the
                                                                         necessary for the employee’s job); and (6) agreements are
nine recommendations with the remainder scheduled to be
                                                                         negotiated, reviewed periodically, and updated as necessary
completed by September 2006. (Audit Report No. 50501-
                                                                         with each SCA. (Audit Report No. 50501-3-FM, OCIO
4-FM, Review of USDA’S C&A Eﬀorts)
                                                                         Management and Security Over IT Convergence – CCE)
Stronger Security Controls Needed for SCAs’
IT Resources                                                             As a Major Focus of PMA, USDA
                                                                         Implementation of IPIA Must Be Improved
The IT convergence process was the consolidation of the
                                                                         OIG identiﬁed the implementation of the Improper
network infrastructures and computing environments of
                                                                         Payments Information Act of 2002 (IPIA)—a priority of
FSA, NRCS, and RD, collectively referred to as the Service
                                                                         Congress and major focus of the President’s Management
Center Agencies (SCAs). Convergence would allow the
                                                                         Agenda (PMA)—as one of six management challenges
SCAs to share data among themselves and their customers,
                                                                         confronting USDA. In FY 2005, we reviewed ﬁve agencies’
streamline business processes, and provide the infrastructure
                                                                         implementation of OCFO’s strengthened guidance and
needed to ensure that customers can conduct business
                                                                         identiﬁed improvements, but concluded that they had not
electronically with the SCAs. The convergence process




  22     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                                  Goal 3




fully implemented the guidance. Because the individual                      The stand-alone agencies of FCIC, CCC, Rural Telephone
agencies had not established controls over the risk                        Bank (RTB), FNS, and RD also received unqualiﬁed
assessment process to ensure adherence to the instructions,                opinions on their individual ﬁnancial statements. On
the ﬁve could not support their conclusions that the                       November 15, 2005, FS received a qualiﬁed opinion on its
nine programs we reviewed were at low risk for improper                    ﬁnancial statements because it was unable to timely provide
payments. Management’s attention and commitment to                         suﬃcient evidence to support certain line items within the
this critical area needs to be stronger. Although USDA                     2005 consolidated statement of ﬁnancing. After providing
added ﬁve new programs as high risk in FY 2005, only two                   additional documentation, on December 21, 2005, FS
of them were supported by risk assessments (the remaining                  received an unqualiﬁed audit opinion. (Audit Report Nos.
three were based on the judgment of agency oﬃcials). The                   50401-56-FM, 05401-14-FM, 06401-20-FM, 08401-
Chief Financial Oﬃcer agreed to meet with the Under and                    5-FM, 15401-6-FM, 27401-1-FM, and 85401-12-FM;
Assistant Secretaries to emphasize the necessity to oversee the            respectively, USDA’s, FCIC’s, CCC’s, FS’, RTB’s, FNS’,
proper and timely implementation of IPIA. (Audit Report                    and RD’s Financial Statements for FY 2005/2004)
Nos. 09601-1-Ch, 03601-13-Ch, 04601-11-Ch, 13601-1-
Ch, 34601-4-Ch, and 50601-0010-Ch; respectively, Rural
Utility Service’s, FSA’s, RHS’, CSREES’, RBS’, and USDA’s
Progress To Implement IPIA)

USDA FY 2005/2004 Consolidated Financial
Statements – Unqualiﬁed Opinion

Improvements Still Needed in Financial
Management Systems and Quality Control

The USDA consolidated ﬁnancial statements for
FY 2005/2004 received an unqualiﬁed opinion for a fourth
year. In our report on internal controls over ﬁnancial
reporting, we identiﬁed three reportable conditions,
of which two rose to the level of material weaknesses:
improvements needed in overall ﬁnancial management
across USDA (abnormal balances, deﬁciencies in credit
reform processes) and improvements needed in IT security
and controls (problems with C&A, weaknesses in CCE
management security). The third reportable item related
to certain ﬁnancial management practices and processes
that require improvement (general ledger adjustments and
unliquidated obligations). We also reported two instances
of noncompliance relating to the Federal Financial
Management Improvement Act of 1996 (FFMIA) and
the Anti-Deﬁciency Act. The Oﬃce of the Chief Financial
Oﬃcer (OCFO) has immediate and long-term plans to
address most of the weaknesses in its ﬁnancial management
systems. The key recommendations were limited to
additional improvements in ﬁnancial management. OCFO
generally agreed with the ﬁndings and recommendations.




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half       23
                                                                Goal 3




GOVERNMENT-WIDE ACTIVITIES – GOAL 3                                          that OIG review the draft document formalizing this
                                                                             process. OIG staﬀ provided written comments to
Review of Legislation, Regulations, Directives,                              RMA, generally agreeing with the proposed changes.
and Memoranda                                                            ■   Over the past few years, RMA has been in the process
                                                                             of revising its procedures for conducting its new quality
■    OIG staﬀ, in an advisory capacity to the Oﬃce of                        assurance system (the National Operations Review)
     the Under Secretary for Research, Education and                         over approved insurance providers. RMA requested
     Economics, reviewed and provided comments on                            OIG to provide comments on the preliminary guide
     the draft Secretary’s Memorandum establishing                           for the National Operations Review. OIG staﬀ has
     Department-wide research misconduct policies and                        been meeting with and providing informal feedback
     procedures in accordance with guidelines from the                       to RMA. OIG suggested that RMA retain speciﬁc
     Oﬃce of Science and Technology Policy (OSTP). This                      documentation to support its review, such as policies,
     review was prompted by the Department’s response to                     crop reports, or loss claim forms with problems. OIG
     Audit Report No. 50099-11-Hy, Implementation of                         also suggested that, after the review, the agency support
     Federal Research Misconduct Policy in USDA. Based                       its work with a formal written document, rather than
     on OIG’s feedback, the draft policies and procedures                    an informal note in the ﬁle. RMA has been generally
     include a provision that all research misconduct                        receptive to OIG’s recommendations.
     allegations must ﬁrst be reported to the Assistant
                                                                         ■   Starting in the fall of 2005, RMA requested OIG
     Inspector General for Investigations for a determination
                                                                             assistance in reviewing and commenting on its
     of possible criminal activity. Also, OIG’s hotline unit
                                                                             draft policies and procedures on full disclosure and
     will be incorporated into the process and used by the
                                                                             conﬂict-of-interest guidelines for participants in the
     public to refer research misconduct allegations. A ﬁnal
                                                                             Federal crop insurance programs (approved insurance
     Secretary’s Memorandum is scheduled to be issued by
                                                                             providers, agents, and loss adjustors). OIG staﬀ
     June 30, 2006.
                                                                             provided comments on RMA’s draft manager’s notice
■    At the request of the Natural Resources Conservation                    on full disclosure. OIG also met on several occasions
     Service (NRCS) National Oﬃce, Easement Programs                         with RMA and Oﬃce of the General Counsel staﬀ
     Division, OIG staﬀ reviewed the agency’s draft                          to discuss RMA’s draft questionnaire involving
     appraisal policies and procedures to ensure that those                  disclosure of conﬂicts of interests by participants in
     guidelines were in accordance with Federal appraisal                    the Federal crop insurance programs. OIG noted that
     standards. Although NRCS has spent more than $1                         the questions in the questionnaire were too broad and
     billion since 1995 acquiring Wetlands Reserve Program                   suggested that the questions be more speciﬁc as to the
     (WRP) easements and has processed more than 7,000                       ﬁnancial, business, or family relationships among the
     appraisal reports, controls were not adequate to ensure                 various parties. OIG also advised RMA that it should
     that its easement valuation process operated eﬀectively,                add a statement to the questionnaire that the person
     eﬃciently, and in compliance with applicable laws and                   signing the questionnaire certiﬁed the accuracy of the
     regulations. OIG recommended that NRCS modify                           information provided. Many of OIG’s comments were
     its appraisal procedures to be consistent with Federal                  incorporated into the draft questionnaire.
     standards and improve the accuracy and reliability of
                                                                         ■   In March 2006, USDA’s Oﬃce of Civil Rights
     its WRP easement valuations by developing a technical
                                                                             (CR) requested that OIG review and comment on a
     appraisal review process to be completed by qualiﬁed
                                                                             proposed rule published by the Oﬃce of Personnel
     Federal review appraisers. OIG found that the draft
                                                                             Management (OPM) (see 71 Fed. Reg. 405355 (Jan.
     appraisal policies and procedures generally addressed
                                                                             25, 2006)), relating to reporting requirements under the
     OIG’s concerns and appeared to be consistent with
                                                                             Notiﬁcation and Federal Employee Antidiscrimination
     Federal standards, and OIG provided informal
                                                                             and Retaliation Act of 2002 (No FEAR Act), Pub.
     comments to NRCS program staﬀ to that eﬀect.
                                                                             L. No. 107-174, 116 Stat. 566. OIG reviewed the
■    Before issuing revised policy and procedures for the                    proposed rule and forwarded comments to CR for
     Federal crop insurance ratemaking process that OIG                      incorporation into the Department’s comments to
     had recommended in an earlier report, RMA requested                     OPM, as appropriate.

    24   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                                Goal 3




    In the proposed rule, OPM expressed an intent to                         Government auditing standards. Comments relating
    include unwritten actions (such as oral admonishments)                   to quality assurance reviews, audit documentation,
    as reportable disciplinary actions under the No FEAR                     auditor responsibility, professional judgment, and
    Act. OIG expressed concerns with this proposed                           competence were provided to the Advisory Council to
    revision as the proposed rule did not provide a clear                    assist in the revision process. The entire Yellow Book
    explanation of what the provision would cover and                        containing the Government Auditing Standards is
    requested that OPM provide further guidance on                           being updated and revised to reﬂect the changes taking
    the issue. Additionally, OIG recommended further                         place in the private sector regarding accountability and
    clariﬁcation regarding certain provisions to avoid                       responsibility.
    potential inconsistencies between the proposed rule,                 ■   OIG is participating in an advisory capacity on FSA’s
    other OPM regulations, and the statutory provisions                      Compliance Task Force. The task force is reviewing
    of the No FEAR Act.                                                      current compliance activities across division and agency
■   The Oﬃce of Management and Budget (OMB)                                  lines, where applicable, and making recommendations
    requested a review of the Treasury Report on the 2005                    for new processes. OIG provided members of the task
    Financial Report of the United States Government.                        force with guidance to detect noncompliance, including
    The report reﬂects the ﬁnancial results and position of                  information on the relationships between inherent
    the Federal Government and provides a comprehensive                      risk, internal controls, vulnerability, and testing. The
    view of the Federal Government’s ﬁnances. OIG                            task force has adopted guidelines suggested by OIG for
    reviewed the ﬁnal draft of the Treasury Report on                        a structured assessment of program vulnerabilities and
    December 1, 2005, and generally concurred with the                       for determining the needs for compliance spot checks.
    report as it pertains to USDA.                                           OIG has also provided input on ways to improve
■   OMB, GAO, and the Department of the Treasury have                        the eﬃciency and eﬀectiveness of FSA’s compliance
    begun revising audit guidance that aﬀects the FY 2006                    activities.
    ﬁnancial and performance audit environment. OIG                      ■   OIG representatives are participating in an advisory
    has submitted multiple sets of comments to these other                   capacity on several USDA committees working to
    Government entities. During the reporting period, OIG                    implement OMB Circular A-123, Appendix A,
    representatives have provided comments on USDA’s                         Internal Control over Financial Reporting Within
    eﬀorts to implement OMB Circular A-123, Appendix                         USDA. These groups include USDA’s Senior
    A – Management’s Responsibility for Internal Controls.                   Management Control Council, Senior Assessment
                                                                             Team, and Assessment Implementation Team. During
    OIG auditors provided additional comments through                        this semiannual reporting period, OIG representatives
    the Financial Statement Audit Network on the                             provided feedback on the scope, approach, and progress
    Special Purpose Financial Statements requirements                        of USDA’s eﬀorts to implement OMB Circular A-
    prescribed in the Treasury Financial Manual. Treasury                    123, Appendix A – Management’s Responsibility
    is presently assessing the need to strengthen and clarify                for Internal Controls. Speciﬁc comments addressed
    the audit requirements to further assist Government                      agency compliance eﬀorts with the Improper Payments
    Accountability Oﬃce (GAO) in its eﬀort to reconcile                      Information Act of 2002.
    the individual Department ﬁnancial statements to the                 ■   OIG auditors are participating in the Department’s
    Government-wide consolidated statements.                                 Credit Reform Task Force, which analyzes issues relating
                                                                             to accounting for lending activities and formulates
Participation on Committees, Working Groups,                                 policies as needed to ensure consistent treatment by all
and Task Forces                                                              USDA lending agencies. During the 6-month period
                                                                             covered by this semiannual report, and under the
■   The IG is a member of the GAO Advisory Council on                        umbrella of this Task Force, the Department tasked
    Government Auditing Standards. The Council provides                      the lending agencies with forming Conﬁguration
    advice and guidance to the Comptroller General on                        Control Boards to oversee changes made to agency




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half        25
                                                               Goal 3




     cashﬂow models. These boards were established in                       the OIG community through presentations describing
     response to recommendations in the Department’s                        current grant fraud cases and proactive opportunities
     ﬁnancial statement audit. Audit representatives serve                  for grant accountability.
     as non-voting members of these boards and participate
     in the board meetings.
                                                                        Testimony Delivered
■    OIG auditors are participating in the Department’s
     Improper Payment Information Act of 2002 (IPIA)                    ■   IG Phyllis K. Fong Testiﬁes Before the House
     working group. Meetings are organized by OCFO’s                        Appropriations      Committee’s        Subcommittee     on
     Credit, Travel, and Accounting Policy Division and                     Agriculture, Rural Development, and Related Agencies,
     held monthly. The working group discusses work plans                   Regarding OIG’s FY 2007 Budget Request. On
     and guidance to ensure timely implementation and                       March 1, 2006, IG Fong and her senior management
     completion of the IPIA initiatives. OIG representatives                team presented testimony in support of OIG’s FY
     have spoken periodically at these meetings to address                  2007 budget request. The IG’s testimony provided
     issues regarding transaction testing and to clarify                    an overview of OIG’s signiﬁcant work over the prior
     documentation necessary to support agency risk                         12 months and informed the Subcommittee of
     assessments submitted to OCFO.                                         noteworthy audit and investigative eﬀorts underway or
■    OIG staﬀ members have been participating on the                        planned for the remainder of 2006. In her testimony,
     PCIE’s Misconduct in Research Working Group.                           Ms. Fong emphasized OIG’s work regarding the
     Contacts were made with the chairperson of the                         Department’s eﬀorts to address BSE, OIG’s plan of
     working group to seek expert guidance on the best                      action to review the Department’s response to the
     practices for a Department-wide research misconduct                    gulf coast hurricanes, and OIG’s eﬀorts to address
     policy. Information was also exchanged with working                    emerging fraud in the WIC and Food Stamp
     group members about establishing a public awareness                    Programs. The hearing also covered other OIG audits
     program on research misconduct, and preliminary                        and investigations of interest to the Congress and the
     discussions were held about various copying detection                  public, including preventing the transfer of sensitive
     software programs. The working group continues                         technology, USDA’s coordination with DHS on border
     tracking the Government-wide implementation                            inspection activities, the Department’s Broadband
     of research misconduct policies and procedures in                      programs, the compensation provided by NRCS for
     accordance with guidelines established by the Oﬃce of                  easements in the Wetlands Reserve Program, and the
     Science and Technology Policy.                                         participation of OIG’s National Computer Forensic
                                                                            Unit in 42 investigations in FY 2005. In the last 6
■    The IG is a member of the PCIE’s Audit Committee.
                                                                            months of FY 2005, USDA agreed to implement 239
     OIG has participated in the revision process of OMB’s
                                                                            program improvements recommended by OIG.
     Bulletin 01-02 – Audit Requirements for Federal
                                                                        ■   IG Phyllis K. Fong Testiﬁes before the Senate Committee on
     Financial Statements and Bulletin A-136 – Financial
                                                                            Agriculture, Nutrition, and Forestry, Regarding USDA’s
     Reporting Requirements. OIG provided comments
                                                                            Management and Oversight of the Packers and Stockyards
     on special-purpose ﬁnancial statements and proposed
                                                                            Act. On March 9, 2006, IG Phyllis Fong testiﬁed
     deadlines. Bulletin 01-02 had not been revised, but
                                                                            on GIPSA’s management and oversight of P&SP. In
     rather periodically amended over the past few years.
                                                                            preparation for this hearing, OIG analyzed the Packers
     Bulletin A-136 is being updated to reﬂect the ﬁnancial
                                                                            and Stockyards Act and Senator Harkin’s recently
     reporting requirements and deadlines for the current
                                                                            proposed legislation “Competitive and Fair Agricultural
     ﬁscal year.
                                                                            Markets Act of 2006,” regarding fair marketing in
■    OIG staﬀ members attended the October 2005                             the livestock industry. The IG’s testimony presented
     Invitational Grant Fraud Training hosted by the                        the major ﬁndings of OIG’s January 2006 audit (see
     National Science Foundation OIG. The purpose of                        page 17). Ms. Fong credited the new GIPSA
     this workshop was to raise awareness of grant fraud in                 Administrator for the positive actions he is taking to
                                                                            address the audit’s ﬁndings and recommendations.




    26   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                                Goal 3




 ONGOING AND PLANNED REVIEWS FOR GOAL 3

 Topics that will be covered in ongoing or planned reviews under Goal 3 include:

 ■     accountability over Newly Independent States                      ■   ARS contract management,
       Scientiﬁc Cooperation Programs (ARS),                             ■   NRCS contract administration,
 ■     Tribal Land Grant Institutions (CSREES),                          ■   review of acquisition planning and processing (Ofﬁce
 ■     oversight of Awarded Research Agreements (CSREES),                    of Procurement and Property Management (OPPM)),

 ■     international trade policy and procedures (FAS),                  ■   application controls over processed
                                                                             commodity inventory systems (FSA),
 ■     Export Credit Guarantee Program (FAS),
                                                                         ■   management and security over USDA’s Universal
 ■     trade adjustment assistance for farmers (FAS),                        Telecommunication Network (OCIO),
 ■     controls over recovery of advance countercyclical                 ■   National Information Technology Center
       payments that exceed the ﬁnal payments (FSA),                         FY 2006 general controls (OCIO),
 ■     crop insurance payments for large-entity                          ■   Dedicated Loan Origination and
       farming operations (RMA and FSA),                                     Servicing (DLOS) System (RD),
 ■     review of RMA contracting,                                        ■   ITS general controls review (OCIO),
 ■     monitoring the ﬁnancial conditions of                             ■   USDA controls over Voyager Fleet Cards,
       RMA’s reinsured companies,
                                                                         ■   nationwide recapture of taxes paid (OPPM),
 ■     RMA Compliance Ofﬁce activities,
                                                                         ■   Capital Improvement Program (FS),
 ■     annual ﬁnancial statement audit of the Department and
       stand-alone agencies for FY’s 2006 And 2007 (OCFO),               ■   implementation of the Healthy Forests Initiative (FS),

 ■     OCFO FY 2005/2006 agreed-upon procedures:                         ■   FS large-ﬁre suppression costs,
       retirement, health, and life insurance, and headcount,            ■   FS Research Grants and Agreements Program,
 ■     OCFO controls over ﬁnal action on                                 ■   Fire incident obligation accounting (FS),
       audit recommendations,
                                                                         ■   infrastructure management (FS),
 ■     FNS application control review of the Store
       Tracking and Redemption Subsystem,                                ■   FS Air Safety Program,

 ■     FY 2006 NFC general controls,                                     ■   Forest Legacy Program appraisal process (FS),

 ■     FISMA – FY 2006 (OCIO),                                           ■   RRH project maintenance inspection
                                                                             procedures (RHS), and
 ■     USDA’s progress to implement IPIA
       regarding high-risk programs,                                     ■   Green Company Development Group, Inc. (RHS).




The ﬁndings and recommendations from these eﬀorts will be covered in future semiannual reports as the relevant audits and
investigations are completed.




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half           27
Gauging the Impact of the OIG
PROGRESS AGAINST THE OIG STRATEGIC PLAN

The ﬁrst way we gauged our impact was by measuring the                 FOR AUDITS WE SHOW
extent to which our work focused on the key issues under               ■      reports issued
our three strategic goals:
                                                                       ■      management decisions made (number
                                                                              of reports and recommendations)
■ Support USDA in the enhancement of safety and
  security measures to protect USDA and agricultural                   ■      total dollar impact of management-decided reports
  resources and in related public health concerns.                            (questioned costs and funds to be put to better use)

■ Reduce program vulnerabilities and enhance                           ■      program improvement recommendations
  integrity in the delivery of beneﬁts to individuals.
                                                                       ■      audits without management decision
■ Increase the efﬁciency and effectiveness with which
  USDA manages and employs public assets and resources,
                                                                       FOR INVESTIGATIONS WE SHOW
  including physical and information resources.
                                                                       ■      indictments

IMPACT OF OIG AUDIT AND INVESTIGATIVE WORK                             ■      convictions
ON DEPARTMENT PROGRAMS                                                 ■      arrests
A second way we gauge our impact is by tracking the
                                                                       ■      total dollar impact (recoveries, restitutions, ﬁnes)
outcomes of our audits and investigations. Many of these
measures are codiﬁed in the Inspector General Act of                   ■      administrative sanctions
1978, as amended. The following pages present a statistical            ■      OIG Hotline complaints
overview of the OIG’s accomplishments this period.




                   PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS


                                                                                        FY 2005 FY 2006
 Performance Measures                                                                   Baseline   Target        FY 2006 1st Half Actual


 Audit/Investigative resources dedicated to critical/high impact work                          81%       90%                         93.6%




 Audit recommendations resulting in management decision within 1 year                          78%       85%                         87.4%



 Investigative cases where criminal, civil, or administrative action is taken in
                                                                                            61.6%        65%                         76.4%
 response to OIG reports




  28     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                                                                  Impact of the OIG




                                                                       SUMMARY OF AUDIT ACTIVITIES
                                                                                    OCTOBER 2005-MARCH 2006

            REPORTS ISSUED                                                                                                                                                                           47
            AUDITS PERFORMED BY OIG                                                                                                                                                                   40
            EVALUATIONS PERFORMED BY OIG                                                                                                                                                               0
            AUDITS PERFORMED UNDER THE SINGLE AUDIT ACT                                                                                                                                                0
            AUDITS PERFORMED BY OTHERS                                                                                                                                                                 7
            MANAGEMENT DECISIONS MADE
            NUMBER OF REPORTS                                                                                                                                                                        28
            NUMBER OF RECOMMENDATIONS                                                                                                                                                               214

            TOTAL DOLLAR IMPACT (MILLIONS) OF MANAGEMENT-DECIDED REPORTS                                                                                                                        $185.7
            QUESTIONED/UNSUPPORTED COSTS                                                                                                                             $25.9   ab

            RECOMMENDED FOR RECOVERY                                                                                                                 $20.2
            NOT RECOMMENDED FOR RECOVERY                                                                                                              $5.7
            FUNDS TO BE PUT TO BETTER USE                                                                                                                           $159.8
    a
        These were the amounts the auditees agreed to at the time of management decision.
    b
        The recoveries realized could change as the auditees implement the agreed upon corrective action plan and seek recovery of amounts recorded as debts due the Department.




                                                             SUMMARY OF INVESTIGATIVE ACTIVITIES
                                                                                   OCTOBER 2005–MARCH 2006

            Reports Issued                                                                                                                                                                          124

            Cases Opened                                                                                                                                                                            163

            Cases Closed                                                                                                                                                                            110

            Cases Referred for Prosecution                                                                                                                                                            38

            IMPACT OF INVESTIGATIONS
            Indictments                                                                                                                                                                             133

            Convictions                                                                                                                                                                             117a

            Searches                                                                                                                                                                                  45

            Arrests                                                                                                                                                                                 250

            TOTAL DOLLAR IMPACT (MILLIONS)                                                                                                                                                        $40.0
            Recoveries/Collections                                                                                                                  $3.8   b



            Restitutions                                                                                                                          $25.9c

            Fines                                                                                                                                   $1.1d

            Claims Established                                                                                                                      $9.0e

            Cost Avoidance                                                                                                                          $0.2f

            ADMINISTRATIVE SANCTIONS                                                                                                                                                                 86
            Employees                                                                                                                                                                                 21

            Businesses/Persons                                                                                                                                                                        65
a
        Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore, the 117 convictions do not necessarily relate to the 133 indictments.
b
        Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
        Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
        Fines are court-ordered penalties.
e
        Claims established are agency demands for repayment of USDA beneﬁts.
f
        Consists of loans or beneﬁts not granted as the result of an OIG investigation.




                                                                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half                                                29
                                                    Impact of the OIG




                                    INVENTORY OF AUDIT REPORTS
                                    WITH RECOMMENDATIONS THAT
                                    FUNDS BE PUT TO BETTER USE
                                FROM OCTOBER 1, 2005, THROUGH MARCH 31, 2006


                                                                               NUMBER   DOLLAR VALUE


            FOR WHICH NO MANAGEMENT DECISION HAD BEEN MADE BY
A.                                                                               8       $477,765,518
            OCTOBER 1, 2005




B.          WHICH WERE ISSUED DURING THE REPORTING PERIOD                        2         $8,881,373




            TOTALS                                                               10      $486,646,891




            FOR WHICH A MANAGEMENT DECISION WAS MADE DURING THE
C.                                                                               1
            REPORTING PERIOD




            (1) DOLLAR VALUE OF DISALLOWED COSTS                                         $159,838,448




            (2) DOLLAR VALUE OF COSTS NOT DISALLOWED                                              $0




            FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE BY THE END OF
D.                                                                               9       $326,808,443
            THE REPORTING PERIOD




            REPORTS FOR WHICH NO MANAGEMENT DECISION WAS MADE WITHIN 6
                                                                                 7       $317,927,070
            MONTHS OF ISSUANCE




 30   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                                            Impact of the OIG




                                                            INVENTORY OF AUDIT REPORTS WITH
                                                              QUESTIONED COSTS AND LOANS
                                                            FROM OCTOBER 1, 2005, THROUGH MARCH 31, 2006



                                                                                                                 DOLLAR VALUES


                                                                                                               QUESTIONED        UNSUPPORTEDa
                                                                                                               COSTS AND          COSTS AND
                                                                                                   NUMBER        LOANS              LOANS

A.
                         FOR WHICH NO MANAGEMENT DECISION HAD BEEN MADE BY                            20         $109,400,845       $46,809,131
                         OCTOBER 1, 2005


B.                       WHICH WERE ISSUED DURING THIS REPORTING PERIOD                               9            25,096,883        $2,181,013



TOTALS                                                                                                29         $134,497,728       $48,990,144



C.
                         FOR WHICH A MANAGEMENT DECISION WAS MADE DURING                              7
                         THIS REPORTING PERIOD


                         (1) DOLLAR VALUE OF DISALLOWED COSTS


                         RECOMMENDED FOR RECOVERY                                                                  20,167,027



                         NOT RECOMMENDED FOR RECOVERY                                                              $5,735,636



                         (2) DOLLAR VALUE OF COSTS NOT DISALLOWED                                                  $2,798,210



D.
                         FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE BY                            22         $106,385,047       $48,990,144
                         THE END OF THIS REPORTING PERIOD


                         REPORTS FOR WHICH NO MANAGEMENT DECISION WAS                                 19         $109,338,549       $46,809,131
                         MADE WITHIN 6 MONTHS OF ISSUANCE

a
    Unsupported values are included in questioned values.




                                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half   31
                                                                Impact of the OIG




PROGRAM IMPROVEMENT RECOMMENDATIONS                                          ■      APHIS generally agreed with our recommendations on
                                                                                    speciﬁc ways to improve inspections for select plant and
A signiﬁcant number of our audit recommendations                                    animal biological agents and toxins and that it re-inspect
                                                                                    registered entities to ensure compliance with security
carry no monetary value per se, but their impact can be
                                                                                    regulations, using formal written procedures to ensure that
immeasurable in terms of safety, security, and public
                                                                                    the inspections are consistent and thorough.
health. They can also contribute considerably toward
economy, eﬃciency, and eﬀectiveness in USDA’s programs                       ■      For the employment program that will succeed the Special
and operations. During this reporting period, we issued                             Wages Incentives Program in Puerto Rico, FNS agreed to
274 program improvement recommendations, and                                        require the Puerto Rican Department of the Family to clearly
                                                                                    deﬁne the replacement program’s objectives and establish
management agreed to implement a total of 198 program
                                                                                    oversight controls to ensure that the program’s objectives
improvement recommendations that were issued this
                                                                                    are met and that the program operates successfully.
period or earlier. Examples of the program improvement
recommendations issued this period include the following.                    ■      FSA agreed to improve its Crop Disaster Program review
(See the main text of this report for a summary of the                              process by completing all required reviews on time,
audits that prompted these program improvement                                      providing appropriate training for reviewers, and expanding
                                                                                    the universe for second-party reviews.
recommendations.)
                                                                             ■      GIPSA agreed to (1) deﬁne investigations by differentiating
■        APHIS revised its testing protocols to require additional                  between performing onsite reviews and obtaining publicly
         conﬁrmatory procedures when inconclusive BSE test                          available data; (2) record and validate data in the tracking
         results occur; agreed to publish information to fully                      system; (3) timely identify the work to be performed,
         advise stakeholders of assumptions and procedures,                         prepare and approve work plans, perform the ﬁeldwork
         limitations of data, and conclusions reached as a result                   and analysis, and report on the results; (4) promptly
         of the BSE surveillance program; and agreed to perform                     receive, review, and act on policy issues and guidance;
         additional outreach to emphasize the importance of                         and (5) perform internal reviews to monitor and report on
         accurately determining and recording the age of the target                 agency activities.
         animals and to ensure laboratory personnel understand
                                                                             ■      USDA agreed to direct the Ofﬁce of Civil Rights to resume
         procedures.
                                                                                    conducting compliance reviews.
■        FSIS agreed to verify the adequacy of speciﬁed risk
                                                                             ■      RMA implemented standardized procedures for monitoring
         material control programs at all beef slaughter and
                                                                                    and reviewing the new crop insurance products, including
         processing establishments and conﬁrm compliance with
                                                                                    timeframes for performing contract reviews, if deemed
         SRM control procedures through its Performance Based
                                                                                    necessary, and established guidelines for annual
         Inspection System.
                                                                                    evaluations performed by private companies, if required in
■        AMS agreed to: (1) maintain a list of speciﬁc, export-                     the product’s memorandum of agreement.
         eligible products for each facility with an approved Beef
                                                                             ■      The Chief Financial Ofﬁcer agreed to meet with the Under
         Export Veriﬁcation program; (2) systematically notify FSIS
                                                                                    and Assistant Secretaries to emphasize the necessity to
         when any establishment is approved/delisted from a BEV
                                                                                    oversee the proper and timely implementation of IPIA.
         program; and (3) work with establishments to ensure
         their processes and controls adhere to BEV program
         requirements.




    32     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                                              Impact of the OIG




                                            SUMMARY OF AUDIT REPORTS RELEASED FROM
                                            OCTOBER 1, 2005, THROUGH MARCH 31, 2006
                     DURING THE 6-MONTH PERIOD FROM OCTOBER 1, 2005, THROUGH MARCH 31, 2006, THE OFFICE
                       OF INSPECTOR GENERAL ISSUED 47 AUDIT REPORTS, INCLUDING 7 PERFORMED BY OTHERS.
                                                           THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:


                                                                                                          QUESTIONED     UNSUPPORTEDa    FUNDS BE PUT
                                                                                                AUDITS     COSTS AND        COSTS AND       TO BETTER
AGENCY                                                                                       RELEASED          LOANS            LOANS            USE
ANIMAL AND PLANT HEALTH INSPECTION SERVICE                                                           1

COMMODITY CREDIT CORPORATION                                                                         1

COOPERATIVE STATE RESEARCH, EDUCATION AND EXTENSION SERVICE                                          1

FARM SERVICE AGENCY                                                                                  4      $9,053,004                      $2,754,543

FOOD AND NUTRITION SERVICE                                                                           7     $12,156,925                      $6,126,830

FOOD SAFETY AND INSPECTION SERVICE                                                                   2

FOREIGN AGRICULTURAL SERVICE                                                                         1      $2,175,876      $2,175,876

FOREST SERVICE                                                                                       9         $37,890

GRAIN INSPECTION, PACKERS AND STOCKYARDS ADMINISTRATION                                              1

MULTIAGENCY                                                                                         10       1,576,699         $5,137

OFFICE OF THE CHIEF FINANCIAL OFFICER                                                                2

RISK MANAGEMENT AGENCY                                                                               3         $96,489

RURAL BUSINESS-COOPERATIVE SERVICE                                                                   1

RURAL DEVELOPMENT                                                                                    1

RURAL HOUSING SERVICE                                                                                1

RURAL TELEPHONE BANK                                                                                 1

RURAL UTILITIES SERVICE                                                                              1


TOTALS                                                                                             47    $25,096,883      $2,181,013      $8,881,373

TOTAL COMPLETED:
      SINGLE AGENCY AUDIT                                                                           37
      MULTIAGENCY AUDIT                                                                             10
      SINGLE AGENCY EVALUATION                                                                       0
      MULTIAGENCY EVALUATION                                                                         0
      TOTAL RELEASED NATIONWIDE                                                                     47
      TOTAL COMPLETED UNDER CONTRACTb                                                                7
      TOTAL SINGLE AUDIT ISSUEDc                                                                     0
a
    Unsupported values are included in questioned values
b
    Indicates audits performed by others
c
    Indicates audits completed as Single Audit
                                                                                                                                               -Continued




                                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half        33
                                                                Impact of the OIG




                  AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                        FROM OCTOBER 1, 2005, THROUGH MARCH 31, 2006

                                                                                    QUESTIONED      UNSUPPORTED
                       RELEASE                                                      COSTS AND        COSTS AND    FUNDS BE PUT
 AUDIT NUMBER            DATE                       TITLE                             LOANS            LOANS      TO BETTER USE


Animal and Plant Health Inspection Service
                                     APHIS - Implementation
336010003AT          2006/01/17      of the Listed Agent or Toxin
                                     Regulations (Phase II)
Total: Animal and Plant Health Inspection Service                            1



Commodity Credit Corporation
                                     Monitoring the Audit of
064010020FM          2005/11/09      CCC’s Fiscal Year 2005
                                     Financial Statements
Total: Commodity Credit Corporation                                          1



Cooperative State Research, Education, and Extension Service
                                     CSREES - USDA’s Progress
                                     To Implement the Improper
136010001CH          2006/02/08
                                     Payments Information Act of
                                     2002
Total: Cooperative State Research, Education and Extension Service           1



Farm Service Agency
                                     Farm Service Agency Debt
                                     Forgiveness Restrictions on
030160002TE          2006/03/31                                                        $9,053,004
                                     Borrower Eligibility for Farm
                                     Loan Programs
                                     Minority Participation in FSA’s
036010011AT          2005/11/17
                                     Farm Loan Programs
                                     FSA - USDA’s Progress To
                                     Implement the Improper
036010013CH          2006/03/06
                                     Payments Information Act of
                                     2002
                                     FSA Improper Payments
036010044TE          2006/03/27      - Finality Rule and Misaction/                                                    $2,754,543
                                     Misinformation
Total: Farm Service Agency                                                   4         $9,053,004                      $2,754,543



Food and Nutrition Service
                                     WIC Administrative Costs in
270020002AT          2006/03/31                                                         $111,303
                                     Georgia
                                     Monitoring of CACFP
270100018CH          2005/10/28                                                         $265,347
                                     Providers in Minnesota




 34     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                                    Impact of the OIG




                   AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                            FROM OCTOBER 1, 2005, THROUGH MARCH 31, 2006

                                                                                         QUESTIONED      UNSUPPORTED
                        RELEASE                                                          COSTS AND        COSTS AND      FUNDS BE PUT
 AUDIT NUMBER             DATE                     TITLE                                   LOANS            LOANS        TO BETTER USE
                                      Audit of the Avella, PA, School
270100034HY           2005/12/01      District’s Use of National
                                      School Lunch Program Funds
                                      FNS - WIC Administrative
270990033SF           2005/11/16
                                      Costs - Oregon
                                      FNS – Special Wages
270990060AT           2005/12/23      Incentive Program in Puerto                          $11,780,275
                                      Rico
                                      FY 2005 FNS Financial
274010001FM           2005/11/08
                                      Statements
                                      National School Lunch
                                      Program - Cost-Reimbursable
276010015KC           2005/12/09                                                                                              $6,126,830
                                      Contracts with a Food Service
                                      Management Company
Total: Food and Nutrition Service                                                7         $12,156,925                        $6,126,830



Food Safety and Inspection Service
                                      FSIS Assessment of the
246010005HY           2005/12/20      Equivalence of the Canadian
                                      Meat Inspection System
                                      Review of Food Safety
246010006CH           2006/03/15      Inspection Service’s In-Plant
                                      Performance System (IPPS)
Total: Food Safety and Inspection Service                                        2



Foreign Agricultural Service
                                      Private Voluntary Organization
070160001AT           2006/03/15      (PVO) Grant Fund                                      $2,175,876      $2,175,876
                                      Accountability
Total: Foreign Agricultural Service                                              1          $2,175,876      $2,175,876



Forest Service
                                      DCAA Audit of Cattlemen’s
                                      Meat Company’s Termination
080170002HQ           2005/12/12
                                      for Convenience Settlement
                                      Proposal Funded By FS
                                      DCAA Audit of ARDCO
080170003HQ           2006/02/28      Inc.’s Termination Proposal
                                      Funded By FS
                                      DCAA Audit of Durette
080170004HQ           2006/02/08      Construction Company’s
                                      Termination Proposal




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half    35
                                                                 Impact of the OIG




                   AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                        FROM OCTOBER 1, 2005, THROUGH MARCH 31, 2006

                                                                                     QUESTIONED     UNSUPPORTED
                         RELEASE                                                     COSTS AND       COSTS AND     FUNDS BE PUT
 AUDIT NUMBER              DATE                   TITLE                                LOANS           LOANS       TO BETTER USE
                                     DCAA Audit of Hawkins &
080170005HQ             2006/03/01   Powers Aviation’s Termination
                                     Proposal Funded By FS
                                     DCAA Audit of Minden Air
080170006HQ             2006/01/30   Corporation’s Termination
                                     Settlement Proposal
                                     Monitoring the Audit of
084010005FM             2005/11/15   Fiscal Year 2005 Forest Service
                                     Financial Statements
                                     Monitoring the Audit of Fiscal
084010006FM             2005/12/21   Year 2005 Forest Service’s
                                     Statement of Financing
                                     Forest Service Collaborative
086010041SF             2006/01/13   Ventures and Partnerships with                       $37,890
                                     Non-Federal Entities
086010042SF             2006/03/14   FS Fireﬁghting Contract Crews
Total: Forest Service                                                         9           $37,890



Grain Inspection, Packers and Stockyards Administration
                                     Management and Oversight
306010001HY             2006/01/10   of the Packers and Stockyards
                                     Programs
Total: Grain Inspection, Packers and Stockyards Administration                1



Multi-Agency
                                     FY 2005 USDA Financial
504010056FM             2005/11/15
                                     Statements
                                     Audit of USDA’s Closing
504010058FM             2005/12/01
                                     Package For Fiscal Year 2005
                                     Management and Security
505010003FM             2005/10/24
                                     Over IT Convergence
                                     Review of USDA’s
505010004FM             2005/10/21   Certiﬁcation and Accreditation
                                     Eﬀort
                                     Federal Information Security
505010005FM             2005/10/06
                                     Management Act – FY 2005
                                     Controls Over APHIS Issuance
506010008TE             2005/12/08   of Genetically Engineered
                                     Organisms Release Permits
                                     Disaster Assistance Payments
506010009TE             2006/02/08                                                       $376,699         $5,137
                                     For Crop Years 2001 and 2002




 36      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                                 Impact of the OIG




                  AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                            FROM OCTOBER 1, 2005, THROUGH MARCH 31, 2006

                                                                                       QUESTIONED      UNSUPPORTED
                       RELEASE                                                         COSTS AND        COSTS AND     FUNDS BE PUT
 AUDIT NUMBER            DATE                     TITLE                                  LOANS            LOANS       TO BETTER USE
                                      USDA’s Progress To Implement
506010010CH           2006/02/13      the Improper Payments
                                      Information Act of 2002
                                      Monitoring BSE Expanded
506010010KC           2006/01/25      Surveillance Program                                $1,200,000
                                      Implementation Phase II
                                      Assessment of USDA’s
506010011HQ           2006/02/16      Controls For Resuming Trade
                                      with Japan For Beef
Total: Multi-Agency                                                           10          $1,576,699         $5,137



Ofﬁce of the Chief Financial Ofﬁcer
                                      FY 2005 National Finance
114010022FM           2005/11/15
                                      Center IT Controls
                                      FY 2005 Agreed Upon
                                      Procedures: Retirement,
114010023FM           2005/10/31
                                      Health and Life Insurance and
                                      Headcount
Total: Oﬃce of the Chief Financial Oﬃcer                                      2



Risk Management Agency
                                      RMA Prevented Planting
050990011SF           2005/11/09                                                             $96,489
                                      Claims
                                      Monitoring the Audit of Fiscal
054010014FM           2005/11/04      Year 2005 FCIC Financial
                                      Statements
                                      New Crop Insurance Products
056010013TE           2006/02/13      Submitted By Private
                                      Companies
Total: Risk Management Agency                                                 3              $96,489



Rural Business-Cooperative Service
                                      RBS - USDA’s Progress to
                                      Implement the Improper
346010004CH           2006/02/08
                                      Payment Information Act of
                                      2002
Total: Rural Business-Cooperative Service                                     1



Rural Development
                                      RD FY 2005 Financial
854010012FM           2005/11/10
                                      Statements
Total: Rural Development                                                      1




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half   37
                                                              Impact of the OIG




                    AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                       FROM OCTOBER 1, 2005, THROUGH MARCH 31, 2006

                                                                                  QUESTIONED    UNSUPPORTED
                         RELEASE                                                  COSTS AND      COSTS AND    FUNDS BE PUT
 AUDIT NUMBER              DATE                 TITLE                               LOANS          LOANS      TO BETTER USE
Rural Housing Service
                                    RHS - USDA’s On-Going
                                    Eﬀorts To Implement
046010011CH            2006/02/24
                                    the Improper Payments
                                    Information Act of 2002
Total: Rural Housing Service                                               1



Rural Telephone Bank
                                    Monitoring the Audit of Fiscal
154010006FM            2005/11/09   Year 2005 RTB’s Financial
                                    Statements
Total: Rural Telephone Bank                                                1



Rural Utilities Service
                                    RUS - USDA’s Progress To
                                    Implement the Improper
096010001CH            2006/03/07
                                    Payments Information Act of
                                    2002
Total: Rural Utilities Service                                             1




Grand Total:                                                              47      $25,096,883    $2,181,013   $8,881,373




 38      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                                    Impact of the OIG




                                      AUDITS WITHOUT MANAGEMENT DECISION
The Inspector General Act has a number of reporting requirements, among them tracking audits without management decision. The following
audits did not have management decisions made within the 6-month limit imposed by Congress. Narratives for new entries follow this table.
An asterisk (*) indicates that an audit is pending judicial, legal, or investigative proceedings that must be completed before the agency can act to
complete management decisions.
                                                                                                         Total Value at Issuance    Amount With No Mgmt.
    Agency             Date Issued                             Title of Report                                       (in dollars)     Decision (in dollars)



NEW SINCE LAST REPORTING PERIOD
                                        1. National Cooperative State/Federal Bovine TB
APHIS                04/20/05
                                           Eradication Program (33099-5-Ch)
                                        2. Implementation of the Listed Agent or Toxin
                     06/23/05
                                           Regulations (33601-2-At)
                                        3. APHIS Animal Care Program Inspection and
                     09/30/05                                                                                          689,354                   689,354
                                           Enforcement Activities (33002-3-SF)


                                        4. Survey of Emergency Feed and Livestock Compensation
FSA                  09/30/05
                                           Programs (03099-52-KC)
                                                                                                                        18,747                     18,747

                                        5. Review of Application Controls Automated Price
                     09/30/05
                                           Support Loan Application (03099-195-KC)
                     09/30/05           6. FSA Compliance Activities (03601-12-Ch)                                   3,741,157                 3,741,157


                                        7. HACCP – Compliance by Very Small Plants
FSIS                 06/24/05
                                           (24601-5-At)


RBS                  09/29/05           8. Request Audit of B&I Loan In Arkansas (34099-7-Te)                        2,502,954



RMA                  05/24/05           9. Review of Pilot Programs (05601-12-Te)


RUS                  09/30/05           10. Broadband Grant and Loan Programs (09601-4-Te)                        340,376,319                195,765,821



PREVIOUSLY REPORTED BUT NOT YET RESOLVED
These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the recommendations where
management decisions had not been reached have been reported in previous Semiannual Reports to Congress. Agencies have been informed of
actions that must be taken to reach management decision, but for various reasons the actions have not been completed. The appropriate Under and
Assistant Secretaries have been notiﬁed of those audits without management decisions.
                                        11. Safeguards To Prevent Entry of Prohibited Pests and
APHIS                02/20/03
                                            Diseases Into the United States (33601-3-Ch)
                                        12. Wildlife Services – Aerial Acquisition Procedures
                     09/30/04                                                                                           25,208                     25,208
                                            (33099-1-KC)
                                        13. Transition and Coordination of Border Inspection
                     03/31/05
                                            Activities Between USDA and DHS (33601-5-Ch)




                                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half                      39
                                                         Impact of the OIG




                               14. NSLP Food Service Management Companies
FNS             05/11/01
                                   (27601-12-KC)
                                                                                            3,572,137    2,815,826

                               15. NSLP – Food Service Management Companies
                09/06/01                                                                    3,537,912     236,749
                                   (27601-24-Ch)
                11/21/01       16. CACFP-Wildwood, Inc. Phase II (27010-6-KC)              36,895,611   36,895,611
                               17. NSLP – Chartwell’s Food Service Management
                03/29/02                                                                     307,711      307,711
                                   Company (27601-13-KC)
                               18. Philadelphia NSLP Computer Attendance/Meal Claim
                06/25/04                                                                     867,424      867,424
                                   Analysis (27010-31-Hy)


FSIS            06/21/00       19. Implementation of HACCP System (24001-3-At)
                               20. Oversight of Production Process and Recall at ConAgra
                09/30/03
                                   Plant (Establishment 969) (24601-2-KC)
                09/30/04       21. Use of Food Safety Information Systems (24601-3-Ch)
                               22. Application Control Review of FSIS’ Performance
                11/24/04
                                   Based Inspection Service (PBIS) System (24501-1-FM)


                               23. Implementation of Agricultural Risk Protection Act
Multiagency     09/30/03
                                   (50099-12-KC)
                09/30/03       24. 2000 Crop Disaster Program (50099-15-KC)                   20,049
                               25. Homeland Security Issues for USDA Grain and
                02/23/04
                                   Commodities Inventory (50099-13-KC)


                               26. Lender Servicing of B&I Guaranteed Loans, Florida
RBS             01/28/02
                                   (34601-3-At)
                                                                                            1,536,060    1,536,060

                               27. Lender Servicing of B&I Guaranteed Loans in Georgia
                01/10/03                                                                    3,766,908    3,706,908
                                   (34601-4-At)
                               28. RD – Lender Servicing of B&I Guaranteed Loan in
                08/27/03                                                                    9,145,549     224,951
                                   Georgia (34601-5-At)
                               29. RD – Liquidation of B&I Guaranteed Loans
                09/30/03                                                                     818,121        3,560
                                   (34601-8-SF)
                               30. RBS Value-Added Agricultural Product Market
                04/23/04
                                   Development Grants (34601-3-KC)


                               31. RRH – Nationwide Initiative in MO – Lockwood
RHS             05/25/00
                                   Management Co., St. Louis, MO (04801-2-KC)
                                                                                            4,922,879    4,807,001

                               32. Rural Rental Housing Program Insurance Expenses,
                09/28/01                                                                     596,665       79,442
                                   Phase II (04601-4-KC)
                               33. RD – RRH Program, Tenant Income Veriﬁcation,
                06/26/03                                                                    7,781,635    3,183,305
                                   Gainesville, FL (04004-3-At)
                               34. Rural Rental Housing Project Costs, Cairo, IL
                09/30/04                                                                     164,000      164,000
                                   (04099-143-Ch)*
                               35. Subsidy Payment Accuracy In Multi-Family Housing
                03/23/05
                                   Programs (04099-339-At)


RMA             02/28/01       36. FY 2000 FCIC Financial Statements (05401-1-HQ)
                               37. Monitoring of RMA’s Implementation of Manual 14
                03/15/02           Reviews/Quality Control Review System
                                   (05099-14-KC)




 40    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                          Impact of the OIG




AUDITS WITHOUT MANAGEMENT DECISION                                      4. Survey of Emergency Feed and Livestock
– NARRATIVE FOR NEW ENTRIES                                             Compensation Program (03099-52-KC),
                                                                        Issued September 30, 2005.
1. National Cooperative State/Federal Bovine
Tuberculosis (TB) Eradication Program                                   Our review generally disclosed that management controls
(33099-5-Ch), Issued April 20, 2005.                                    did not ensure nonfat dry milk (NDM) distributed through
                                                                        the 2002 Cattle Feed Program (CFP) and the 2003 Nonfat
We have reached management decisions on three of the                    Dry Milk Assistance initiative (NDMA) was used for
four recommendations. Because APHIS is proposing                        authorized purposes. In some cases, excess NDM was sold
regulation changes for the remaining recommendation, we                 to third parties for export and possible incorporation into
have suggested alternative actions until the regulations are            human food products, which was not intended under the
ﬁnalized.                                                               program, or stored outdoors for prolonged periods of time.
                                                                        For the Livestock Compensation Program (LCP) we found
2. Implementation of the Listed Agent or                                that, in non-drought-related disaster counties, there was no
Toxin Regulations (33601-2-At), Issued June                             direct correlation between the amounts of LCP payments
23, 2005.                                                               and economic losses due to the disaster—the program’s
                                                                        standard payment rate per head of livestock was based on
We found that APHIS had not fully implemented                           economic losses due to long-term drought conditions.
controls for enforcing safeguard and security measures to                  We generally recommended that FSA recover $18,747
prevent access to dangerous biological agents and toxins as             in transportation costs associated with NDM improperly
required by the Public Health Security and Bioterrorism                 ordered by a feed dealer for delivery to ineligible producers
Preparedness and Response Act of 2002. The audit report                 and that FSA develop recommendations and strengthen
contained 10 recommendations to strengthen APHIS                        internal controls for future NDM assistance programs
controls over its Select Agent Program. APHIS agreed                    based on best practices/lessons learned. As part of the
with the recommendations, and management decision has                   implementation of the 2004 NDMA, FSA implemented
been reached for nine of them. We are awaiting a response               signiﬁcant actions to restrict the quantities and end-use of
from APHIS to address the timeframe for completing the                  NDM made available under the program. FSA agreed to
remaining recommendation.                                               take all practicable steps to ensure future LCP beneﬁts are
                                                                        targeted to eligible producers who suﬀer eligible losses. Due
3. APHIS Animal Care Program Inspection                                 to the Deputy Administrator for Commodity Operations’
and Enforcement Activities (33002-3-SF),                                (DACO) shift of resources to handle urgent needs relating
Issued September 30, 2005.                                              to Hurricanes Katrina and Rita, FSA (DACO) was unable
                                                                        to provide a complete response to the audit until March
We identiﬁed several ways in which Animal Care should                   2006. Management decision for the report’s seven open
improve its inspection and enforcement practices to ensure              recommendations is pending OIG evaluation of the
that animals receive humane care and treatment and that                 corrective actions proposed by DACO.
public safety is not compromised. Management decisions
were reached on 12 of the 20 recommendations. We are                    5. Review of Application Controls
awaiting a response from APHIS to address the remaining                 Automated Price Support Loan Application
eight recommendations.                                                  (03099-195-KC), Issued September 30, 2005.

                                                                        Our audit identiﬁed areas where improvements were
                                                                        warranted regarding application programming, access,
                                                                        and security. We found that weaknesses existed in several




                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half         41
                                                           Impact of the OIG




automated checks used to validate data in the price support              7. HACCP – Compliance by Very Small Plants
loan application. Speciﬁcally, we found weaknesses in
                                                                        (24601-5-At), Issued June 24, 2005.
controls over logical access, transmission of data without
the appropriate security measures, risk assessment
                                                                        Our audit found a number of deﬁciencies that needed
documentation, and contingency plans. We recommended
                                                                        correction before FSIS could consider very small plants
that FSA consult with OCIO and implement adequate
                                                                        to be in full compliance with HACCP regulations. We
security to ensure that all sensitive data is transmitted
                                                                        concluded that management controls for monitoring
securely in accordance with applicable requirements and
                                                                        both plant operations and inspectors’ performance needed
revise contingency plans for county oﬃces that will provide
                                                                        improvement. Management decisions have been accepted
the achievable processes to be followed for continued
                                                                        for 9 of the 14 recommendations. We are awaiting a
operation if an emergency arises and establish oversight of
                                                                        response from the agency to address the remaining ﬁve
the plans.
                                                                        recommendations.
   Two of the seven recommendations remain without
management decision. For one recommendation, the
                                                                        8. Request Audit of B&I Loan in Arkansas
management decision is contingent on the pending OCIO
                                                                        (34099-7-Te), Issued September 29, 2005.
decision regarding the waiver of departmental requirements.
If a waiver is not granted, then a corrective action plan
                                                                        RBS agreed with our recommendation not to honor the
and applicable timeframes are needed. For the other
                                                                        guarantee and to recover $2,502,954 from the lender. RBS
recommendation, additional clariﬁcation is needed on when
                                                                        is currently working on resolution of disbarring the lender
the updated contingency plan instructions will be provided
                                                                        from Government programs. We continue to work with
to the county oﬃces and the procedures to provide oversight
                                                                        RBS to resolve this remaining issue.
of the plans to ensure that they accurately describe expected
actions. FSA asked for an extension to reply in December
                                                                        9. Review of Pilot Programs (05601-12-Te),
2005, but no response has been received to date.
                                                                        Issued May 24, 2005.
6. FSA Compliance Activities (03601-12-Ch),
                                                                        We found that RMA needs to strengthen its monitoring of
Issued September 30, 2005.
                                                                        pilot programs during its evaluation periods. For the three
                                                                        commodities we reviewed—sweet potatoes, fresh market
We found that there is no eﬀort to coordinate FSA’s myriad
                                                                        beans, and processing cucumbers—RMA experienced
compliance functions or to capture and analyze the results
                                                                        mounting losses through consecutive years but either made
of FSA’s various compliance reviews and spot checks in
                                                                        no adjustments to program provisions or made adjustments
order to identify and remedy program weaknesses. In
                                                                        that had no perceptible eﬀect on the losses themselves.
addition, FSA could improve the eﬃciency of its reviews by
                                                                        RMA has in place a monitoring process through which the
employing advanced techniques, such as statistical sampling
                                                                        agency is to measure on a yearly basis each pilot program’s
or data-mining—we conservatively calculated that, if FSA
                                                                        performance against its established goals of participation,
used statistical sampling to conduct the two compliance
                                                                        premium income, etc. However, we found that the
reviews we examined, FSA could save more than 368,000
                                                                        monitoring process was ineﬀective. In the last remaining
work hours (valued at more than $3.7 million). We
                                                                        open recommendation, we recommended that RMA review
generally recommended that FSA overhaul its compliance
                                                                        its monitoring and any other evaluations of the Sweet Potato
activities to implement more eﬃcient and eﬀective methods
                                                                        Pilot Program and determine whether any personnel action
of performing and using the results of its compliance reviews.
                                                                        should be initiated for the losses incurred by this program.
FSA organized a task force to examine its compliance
                                                                        We are working with RMA to achieve management
functions and plans to propose management decisions based
                                                                        decision. However, we cannot accept management decision
on task force recommendations by January 2007.
                                                                        until RMA informs us of its determination of the action, if
                                                                        any, to be undertaken.




  42     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                                           Impact of the OIG




10. Broadband Grant and Loan Programs                                                         INDICTMENTS AND CONVICTIONS
(09601-4-Te), Issued September 30, 2005
                                                                                              From October 1, 2005, through March 31, 2006, OIG
We have reached agreement on 2 of the 11 recommendations                                      completed 124 investigations. We referred 38 cases to
and are working with RUS to reach management decisions                                        Federal, State, and local prosecutors for their decision.
for the remainder of the recommendations. We are working                                         During the reporting period, our investigations led to
with the agency in reﬁning the deﬁnition of eligible rural                                    133 indictments and 117 convictions. The period of time
areas and in prioritizing funding of proposed projects. We                                    to obtain court action on an indictment varies widely;
are also working with RUS to reach agreement on what                                          therefore, the 117 convictions do not necessarily relate to the
policies the agency will implement regarding the funding                                      133 indictments. Fines, recoveries/collections, restitutions,
of projects in a competitive environment. Finally, we are                                     claims established, cost avoidance, and administrative
waiting for RUS to provide us with speciﬁc information                                        penalties resulting from our investigations totaled about
on corrective actions they will take regarding the problem                                    $40 million. The following is a breakdown, by agency, of
loans and grants we identiﬁed in our audit.                                                   indictments and convictions for the reporting period.




                                                         Indictments and Convictions
                                                            October 1, 2005 – March 31, 2006

    Agency                                                                                                           Indictments           Convictions*
    APHIS                                                                                                                     7                     15
    FAS                                                                                                                       3                       1
    FNS                                                                                                                      84                     54
    FS                                                                                                                        6                       5
    FSA                                                                                                                      14                     26
    FSIS                                                                                                                      4                       3
    GIPSA                                                                                                                     1                       0
    NASS                                                                                                                      1                       0
    NRCS                                                                                                                      4                       6
    OCFO                                                                                                                      0                       1
    OIG**                                                                                                                     1                       0
    OJO                                                                                                                       1                       1
    RBS                                                                                                                       1                       0
    RHS                                                                                                                       1                       4
    RMA                                                                                                                       4                       1
    RUS                                                                                                                       1                       0
    Totals                                                                                                                 133                    117

    *This category includes pretrial diversions.
    **Not an OIG employee, but rather a former employee of a contractor who worked for OIG.




                                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half              43
                                                        Impact of the OIG




OFFICE OF INSPECTOR GENERAL HOTLINE                                  reporting period, the OIG Hotline received 775 complaints,
                                                                     which included allegations of participant fraud, employee
The OIG Hotline serves as a national receiving point for             misconduct, and mismanagement, as well as opinions
reports from both employees and the general public of                about USDA programs. Figure 1 displays the volume and
suspected incidents of fraud, waste, mismanagement, and              type of the complaints we received, and ﬁgure 2 displays the
abuse in USDA programs and operations. During this                   disposition of those complaints.




       Figure 1.                        Volume and Type of Complaints Received



       Reprisal (1)                                                                                    Participant Fraud (481)

       Bribery (3)

       Waste/Mismanagement (107)



                                                                                                             Health/Safety (3)
       Employee Misconduct (111)
                                                                                                     Opinion/Information (69)




       Figure 2.                        Disposition of Complaints Received

       Referred to USDA or Other Agencies for
       Information - No Response (78)                                                        Referred to FNS for Tracking (231)

       Referred to OIG Audit or Investigations
       for Review (54)
       Filed Without Referral -
       Insuﬃcient Information (47)

       Referred to State Agency (4)
                                                                                                   Referred to USDA Agencies
                                                                                                          for Response (361)




  44     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                                  Impact of the OIG




               FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA)
                                  REQUESTS FOR THE PERIOD OCTOBER 1, 2005,
                                             TO MARCH 31, 2006


Number of FOIA/PA Requests Received                                                                              107
Number of FOIA/PA Requests Processed                                                                             109
 Number Granted                                                                                                   29
 Number Partially Granted                                                                                         38
 Number Not Granted                                                                                               42
Reasons for Denial
 No Records Available                                                                                             17
 Referred to Other Agencies                                                                                        4
 Requests Denied in Full (Exemption 7A)                                                                            7
 Requests Denied in Full (Exemption 5)                                                                             1
 Request Withdrawn                                                                                                 4
 Fee-Related                                                                                                       0
 Not a Proper FOIA Request                                                                                         2
 Not an Agency Record                                                                                              1
 Duplicate Request                                                                                                 2
 Other                                                                                                             4
Requests for OIG Reports From Congress and Other Government Agencies
  Received                                                                                                        17
  Processed                                                                                                       17
Appeals Received                                                                                                  5
Appeals Processed                                                                                                 6
 Appeals Completely Upheld                                                                                         3
 Appeals Partially Reversed                                                                                        0
 Appeals Completely Reversed                                                                                       3
 Appeals Requests Withdrawn                                                                                        0
Number of OIG Reports/Documents Released in Response to Requests                                                 68

NOTE 1: A request may involve more than one report.
NOTE 2: During this 6-month period, 45 audit reports were posted to the Internet at the OIG Web site:
        http://www.usda.gov/oig




                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half    45
                                                      Abbreviations




                                       Abbreviations of Organizations
 AMS                    Agricultural Marketing Service
 APHIS                  Animal and Plant Health Inspection Service
 ARS                    Agricultural Research Service
 CBP                    U.S. Customs and Border Protection
 CCC                    Commodity Credit Corporation
 CDC                    Centers for Disease Control and Prevention
 CR                     Oﬃce of Civil Rights
 CSREES                 Cooperative State Research, Education, and Extension Service
 DHS                    U.S. Department of Homeland Security
 DOF                    Puerto Rico Department of the Family
 DOJ                    Department of Justice
 FAS                    Foreign Agricultural Service
 FBI                    Federal Bureau of Investigation
 FCIC                   Federal Crop Insurance Corporation
 FNS                    Food and Nutrition Service
 FS                     Forest Service
 FSA                    Farm Service Agency
 FSIS                   Food Safety and Inspection Service
 GAO                    Government Accountability Oﬃce
 GIPSA                  Grain Inspection, Packers and Stockyards Administration
 ITS                    Information Technology Services
 NASS                   National Agricultural Statistics Service
 NFC                    National Finance Center




46    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half
                                 Abbreviations




                     Abbreviations of Organizations
NFF    National Forest Foundation
NIST   National Institute of Standards and Technology
NITC   National Information Technology Center
NRCS   Natural Resources Conservation Service
OCFO   Oﬃce of the Chief Financial Oﬃcer
OCIO   Oﬃce of the Chief Information Oﬃcer
OGC    Oﬃce of the General Counsel
OIG    Oﬃce of Inspector General
OJO    Oﬃce of Judicial Oﬃcer
OMB    Oﬃce of Management and Budget
OPM    Oﬃce of Personnel Management
OPPM   Oﬃce of Procurement and Property Management
OSTP   Oﬃce of Science and Technology Policy
PCIE   President’s Council on Integrity and Eﬃciency
PPQ    Plant Protection and Quarantine
P&SP   Planning and Special Projects
RBS    Rural Business-Cooperative Service
RD     Rural Development
RHS    Rural Housing Service
RMA    Risk Management Agency
RUS    Rural Utilities Service
USDA   U.S. Department of Agriculture




                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 1st Half   47
                              Key OIG Accomplishments in
                                  This Reporting Period
                                                RESULTS IN KEY CATEGORIES
                                                      SUMMARY OF AUDIT ACTIVITIES

Reports Issued
    Number of Reports                                                                                                                  47
    Number of Recommendations                                                                                                      307

Management Decisions Made
    Number of Reports                                                                                                                  28
    Number of Recommendations                                                                                                      214

Total Dollar Impact (Millions) Of Management-Decided Reports                                                                     $185.7
    Questioned/Unsupported Costs                                                                               $25.9
    Funds To Be Put to Better Use                                                                            $159.8

Summary of Investigative Activities
Reports Issued                                                                                                                     124
Impact of Investigations
    Indictments                                                                                                                    133
    Convictions                                                                                                                    117
    Arrests                                                                                                                        250

Total Dollar Impact (Millions)                                                                                                    $40.0
Administrative Sanctions                                                                                                               86


EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT AGREED TO DURING THIS
REPORTING PERIOD (198 TOTAL)
■       APHIS (1) revised its testing protocols to require             ■     APHIS generally agreed with our recommendations
        additional conﬁrmatory procedures when inconclusive                  on speciﬁc ways to improve inspections for select
        BSE test results occur; (2) agreed to publish information            plant and animal biological agents and toxins.
        to fully advise stakeholders of assumptions and
                                                                       ■     FSA agreed to improve its Crop Disaster Program
        procedures, limitations of data, and conclusions
                                                                             review process by completing all required reviews on
        reached as a result of the BSE surveillance program;
                                                                             time, providing appropriate training for reviewers, and
        and (3) agreed to perform additional outreach to
                                                                             expanding the universe for second-party reviews.
        emphasize the importance of accurately determining
        and recording the age of the target animals and                ■     GIPSA agreed to deﬁne investigations by
        ensure laboratory personnel understand procedures.                   differentiating between performing onsite reviews
                                                                             and obtaining publicly available data.
■       FSIS agreed to verify the adequacy of control
        programs for speciﬁed risk material at all beef                ■     USDA agreed to direct the Ofﬁce of Civil Rights
        slaughter and processing establishments.                             to resume conducting compliance reviews.
■       AMS agreed to (1) maintain a list of speciﬁc, export-          ■     The Chief Financial Ofﬁcer agreed to meet with the Under
        eligible products for each facility with an approved                 and Assistant Secretaries to emphasize the necessity to
        Beef Export Veriﬁcation program; (2) systematically                  oversee the proper and timely implementation of IPIA.
        notify FSIS when any establishment is approved/
        delisted from a BEV program; and (3) work with
        establishments to ensure their processes and
        controls adhere to BEV program requirements.
                                                    To learn more about OIG, visit our Web site at
                                                            www.usda.gov/oig/home.htm

                                              How To Report Suspected Wrongdoing in USDA Programs

                                                               Fraud, Waste, and Abuse:

                                                          In Washington, DC: 202.690.1622
                                                              Outside DC: 800.424.9121
                                                          TDD (Call Collect): 202.690.1202

                                                   Bribes or Gratuities: 202.720.7257 (24 hours)
                                                             888-620-4185 (24 hours)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race, color, national
origin, age, disability, and where applicable, sex, marital status, familial status, parental status, religion, sexual orientation, genetic
information, political beliefs, reprisal, or because all or part of an individual’s income is derived from any public assistance program. (Not all
prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720–2600 (voice and TDD). To ﬁle a complaint of
discrimination, write to USDA, Director, Ofﬁce of Civil Rights, 1400 Independence Avenue, S.W., Washington, D.C. 20250–9410, or call (800)
795–3272 (voice) or (202) 720–6382 (TDD). USDA is an equal opportunity provider and employer.
